  September 6, 2005




Information Technology
Management
Report on Defense Information Systems Agency,
Center for Computing Services Controls Placed in
Operation and Tests of Operating Effectiveness
for the Period October 1, 2004 through April 30,
2005 (D-2005-105)



                  Department of Defense
              Office of the Inspector General

                                    Constitution of
                                   the United States

      A Regular Statement of Account of the Receipts and Expenditures of all public
      Money shall be published from time to time.
                                                              Article I, Section 9
Additional Copies

To obtain additional copies of this report, visit the Web site of the Department of
Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
Secondary Reports Distribution Unit, Audit Followup and Technical Support at
(703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Future Audits

To suggest ideas for or to request future audits, contact Audit Followup and
Technical Support at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932.
Ideas and requests can also be mailed to:

                  ODIG-AUD (ATTN: AFTS Audit Suggestions)
                    Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                          Arlington, VA 22202-4704
                            INSPECTOR GENERAL
                           DEPARTMEh' OF DEFEhSE
                              400 ARMY NAVY DRIVE
                         ARLINGTON. VIRGINIA 22202-4704



                                                                      September 6, 2005
MEMORANDUM FOR THE Uh'DER SECRETARY OF DEFENSE
                 (COMPTR0LLER)ICHIEF FINANCIAL OFFICER
               DIRECTOR, DEFENSE INFORMATION SYSTEMS
                 AGENCY
SUBJECT: Report on Defense Information Systems Agency, Center for Computing
         Services Controls Placed in Operation and Tests of Operating Effectiveness
         for the Period October 1, 2004 through April 30, 2005
         (Report No. D-2005-105)

        We are providing this report for your information and use. No written response to
this report is required. Therefore, we are publishing this report in final form.
       We appreciate the courtesies extended to the staff. Questions should be directed
to Mr. Michael Perkins at (703) 325-3557 (DSN 221-3557) or Ms. Suzette L. Luecke at
(703) 428- 1067 (DSN 328- 1067). The team members are listed inside the back cover.
                               By direction of the Deputy Inspector General for Auditing:


                                       g
                                       Paul
                                     for
                                                     l    a. m d
                                              J. Granetto, CPA
                                      Assistant Inspector General
                                      Defense Financial Auditing-
                                                 Service
Table of Contents

Forward                                                    i

Section I
      Independent Service Auditors’ Report                 1

Section II
      Overview of Operations                               9
      Overview of Control Environment                     14
      Information and Communication                       25
      Control Objectives and Related Control Activities   26
      User Control Considerations                         26

Section III
      Entity-wide Security Program                        31
      Access Control                                      37
      Software Development and Change Control             50
      Segregation of Duties                               55
      Service Continuity                                  59

Section IV
      Introduction                                        65
      Security Processes and Other Considerations         69
      Continuity of Operations Plan                       70
      Summary                                             71

Acronyms and Abbreviations                                72


Report Distribution                                       73
                                    FOREWARD
This report is intended for the use of Defense Information Systems Agency (DISA)
management, its user organizations, and the independent auditors of its user
organizations.

The DoD Office of Inspector General is implementing a long-range strategy to conduct
audits of DoD financial statements. The Chief Financial Officer’s Act of 1990
(P.L. 101-576), as amended, mandates that agencies prepare and conduct audits of
financial statements. The reliability of information processed at DISA sites directly
impacts DoD’s ability to produce reliable, and ultimately auditable, financial statements,
which is key to achieving the goals of the Chief Financial Officer’s Act.

This report focuses on DISA’s Center for Computing Services (CS), an organization that
provides computer processing for the entire range of combat support functions; including
transportation, logistics, maintenance, munitions, engineering, acquisition, finance,
medicine, and military personnel readiness. CS offers computing services on both
CS-owned and customer-owned platforms to include computer operations, data storage,
systems administration, security management, capacity management, system engineering,
web and portal hosting, architectural development, and performance monitoring.

This audit assessed controls over the CS processing environment. The report provides an
opinion on the fairness of presentation, the adequacy of design, and the operating
effectiveness of key controls that are relevant to audits of user organization financial
statements. As a result, this audit may preclude the need for multiple audits of CS
controls previously performed by user organizations to plan or conduct financial
statement and performance audits. This audit will also provide, in separate audit reports,
recommendations to management for correction of identified control deficiencies.
Effective internal control is critical to achieving reliable information for all management
reporting and decision-making purposes.

The concept of internal controls is fundamental to this Statement on Auditing
Standards No. 70 report. Internal control is the process designed to provide reasonable
assurance that objectives regarding the reliability of financial reporting, the effectiveness
of operations, and compliance with applicable significant laws and regulations are
achieved. DISA has imposed internal control standards that require strict compliance
with DoD and DISA policies. DISA’s level of compliance with specific aspects of these
regulations has a direct impact on the accompanying description of internal controls and
related test results.




                                              i
Section I: Independent Service Auditors’ Report




                       1
                              INSPECTOR GENERAL
                              DEPARTMENT OF DEFENSE
                                400 ARMY NAVY DRIVE
                           ARLINGTON, VIRGINIA 22202-4704



                                                                           September 6,2005

MEMORANDIJM FOR THE UNDER SECRETARY OF DEFENSE
                  (COMPTR0LLER)lCHEF FINANCIAL OFFlCER
                DIRECTOR, DEFENSE INFORMATION SYSTEMS


SUBJECT: Report on Defense Information Systems Agency Controls Placed in
         Operation and Tests of Operating Effectiveness for the Period October 1,
         2004 through April 30,2005


We have examined the accompanying description of Defense Infornlation Systems
Agency (DISA) Center for Computer Services (CS) controls applicable to the Defense
Enterprise Computing Centers (DECCs) located at Chambersburg, Pennsylvania;
Columbus, Ohio; Dayton, Ohio; Denver, Colorado; Huntsville, Alabama; Jacksonville,
Florida; Mechanicsburg, Pennsylvania; Montgomery, Alabama; Norfolk, Virginia;
Oklahoma City, Oklahoma; Ogden, Utah; Rock Island, Illinois; San Antonio, Texas;
San Diego, California; St. Louis, Missouri; and Warner Robins, Georgia. These locations
and the unclassified technologies (operating systems) resident therein were the sample
population from which tests of specific controls were applied. Our examination included
proccdurcs to obtain rcasonsblc assurdnrr. about whctl-.cr ( I ) the acrt)nipan)inp
~icscriptionpresents fairly, in all nidrcrial respects. thc aspccts of ( 3 ' s ~nfornlation
technology (IT) controls that may be relevani to a user organization's internal controls as
it relates to an audit of financial statements; (2) the IT controls included in the description
were suitably designed to achieve the control objectives specified in the description, if
those controls were complied with satisfactorily, and user organizations applied the
controls contemplated in the design of CS's controls; and (3) such controls had been
placed in operation as of April 30,2005. The control objectives were specified by the
Office of Inspector General, Department of Defense. Our examination was performed in
accordance with standards established by the American Institute of Certified Public
Accountants and the standards applicable to financial audits contained in Government
Auditing Standards issued by the Comptroller General of the United States, and included
those procedures we considered necessary in the circumstances to obtain a reasonable
basis for rendering our opinion.

As discussed in the accompanying description, CS did not have control procedures in
place to ensure that resource owners identified authorized users and their respective
access rights. These deficiencies resulted in controls not being suitably designed to
achieve control objective AC 2, "Controls provide reasonable assurance that a current list
of authorized users and their respective access rights are maintained."

As discussed in the accompanying description, CS did not completely have DoD required
logical control procedures in place to fully ensure passwords, tokens, or other devices
were used to identify and authenticate users; access paths were identified and access
authorizations were appropriately limited; policies and techniques had been implemented
for using and monitoring the use of system utilities, as well as for investigating and
resolving inappropriate or unusual activity; telecommunications were secured; and
cryptographic tools were used in a secure fashion. These deficiencies resulted in the
implementation, monitoring, and enforcement of logical controls not being suitably
designed to achieve control objective AC 3, “Controls provide reasonable assurance that
physical and logical controls to prevent or detect unauthorized access are fully
established and access to and use of system software is monitored.”

As discussed in the accompanying description, control procedures in place by CS did not
fully ensure audit trails were always maintained and actual or attempted unauthorized,
unusual, or sensitive access was fully monitored. These deficiencies resulted in controls
not being suitably designed to achieve control objective AC 4, “Controls provide
reasonable assurance that access is monitored, apparent security violations are
investigated, and appropriate remedial action is taken.”

In our opinion, the accompanying description of the aforementioned controls presents
fairly, in all material respects, the relevant aspects of CS controls that had been placed in
operation as of April 30, 2005. Also, in our opinion, except for the matters described in
the preceding paragraphs, the controls, as described, were suitably designed to provide
reasonable assurance that the specified control objectives would be achieved if the
described controls were complied with satisfactorily.

CS states in its description of controls that all security risks are periodically assessed
against federal requirements. Tests of operating effectiveness indicated that not all risk
assessments fully conformed to the Field Security Operations (FSO) Risk Analysis
Guide. As a result, the control objective SP 1, “Controls provide reasonable assurance
that security risks are periodically assessed,” was not achieved.

CS states in its description of controls that all security plans are kept current. Tests of
operating effectiveness indicated that not all security plans incorporated current guidance
provided by DoD Instruction 8500.2, the DISA Computing Services Handbook, and
Office of Management and Budget (OMB) Circular A-130 Appendix III. As a result,
control objective SP 2, “Controls provide reasonable assurance that an entity-wide
security program plan is documented, approved, and kept current,” was not achieved.

CS states in its description of controls that owners and users are aware of security
policies and that an incident response capability has been fully implemented. Tests of
operating effectiveness indicated that not all sites had an effective security awareness
program that provided guidance to users regarding the importance of security, not all
sites had procedures implemented to determine that employees and contractors completed
a nondisclosure agreement form to evidence their understanding and acceptance of
confidential information disclosure restrictions and requirements, and not all site
personnel were familiar with their responsibilities for intrusion detection and incident
response. As a result, control objective SP 3, “Controls provide reasonable assurance
that a security management structure is established and security responsibilities are
clearly assigned,” was not achieved.

CS states in its description of controls that hiring, transfer, termination, and performance
policies address personnel security and that employees have adequate training and
expertise. Tests of operating effectiveness indicated that not all sites implemented formal
policies for debriefing and removing access of terminated employees, not all sites
provided appropriate training for personnel to perform their duties, and not all sites
maintained documentation of employee training and professional development activities.
As a result, control objective SP 4, “Controls provide reasonable assurance that effective
security-related personnel policies have been implemented,” was not achieved.

CS states in its description of controls that authorizations for software modifications are
documented and maintained and the use of public domain and personal software is

                                              4
restricted. Tests of operating effectiveness indicated that not all sites always documented
configuration change request authorizations and not all sites restricted the use of
unapproved and unaccredited software. As a result, control objective CC 1, “Controls
provide reasonable assurance that processing features and program modifications are
properly authorized,” was not achieved.

CS states in its description of controls that changes are controlled as software progresses
through testing to final implementation. Tests of operating effectiveness indicated that
not all sites restricted programmers’ access to the production environment, and not all
sites maintained adequate audit trails or logs for identified systems. As a result, control
objective CC 2, “Controls provide reasonable assurance that all new and revised software
including system software are tested and controlled,” was not achieved.

CS states in its description of controls that movement of programs and data among
libraries is controlled. Tests of operating effectiveness indicated that not all sites had
complete procedures for movement of program code between libraries, as well as
complete documentation and approval processes. As a result, control objective CC 3,
“Controls provide reasonable assurance that software libraries are controlled,” was not
achieved.

CS states in its description of controls that data and program backup procedures and
environmental controls have been implemented. Tests of operating effectiveness
indicated that not all sites had formal tape backup procedures that were being
consistently followed; performed backup verifications; procedures to recover backups
stored off-site; procedures to control physical access to off-site locations; sufficient
environmental controls; and trained environmental personnel. As a result, control
objective SC 2, “Controls provide reasonable assurance that data and program backup
procedures and environmental controls have been implemented,” was not achieved.

In addition to the procedures we considered necessary to render our opinion as expressed
in the previous paragraph, we applied tests to specific controls, listed in section III, to
obtain evidence about their effectiveness in meeting control objectives, described in
section III, during the period from October 1, 2004 to April 30, 2005. The specific
controls and the nature, timing, extent, and results of the tests are listed in section III.
This information has been provided to user organizations of CS and to their auditors to be
taken into consideration, along with information about the internal control of user
organizations, when making assessments of control risk for user organizations.

In our opinion, except for the deficiencies listed in the preceding paragraphs, the controls
that were tested, as described in section III, were operating with sufficient effectiveness
to provide reasonable, but not absolute, assurance that the control objectives specified in
section III were achieved during the period from October 1, 2004 to April 30, 2005;
however, the scope of our engagement did not include tests to determine whether control
objectives not listed in section III were achieved; accordingly, we express no opinion on
the achievement of control objectives not listed in section III.

The relative effectiveness and significance of specific controls at CS and their effect on
assessments of control risk at user organizations are dependent on their interaction with
the controls and other factors present at individual user organizations. We performed no
procedures to evaluate the effectiveness of controls at individual user organizations.

The description of controls at CS is as of April 30, 2005, and the information about tests
of the operating effectiveness of specific controls covers the period from October 1, 2004
to April 30, 2005. Any projection of such information to the future is subject to the risk

                                              5
that, because of change, the description may no longer portray the controls in existence.
The potential effectiveness of specific controls at CS is subject to inherent limitations
and, accordingly, errors or fraud may occur and not be detected. Furthermore, the
projcction of any conclusions, based on our findings, to future periods is subject to the
risk that changes made to the system or controls, or the failure to make needed changes to
the system or controls, may alter the validity of such conclusions.

The information in section N describing CS's transformation plans, as well as plans to
modify service continuity plans, is presented by CS to provide additional information and
is not part of CS's description of controls that may be relevant to a user organization's
internal control. Such information has not been subjected to the procedures applied in the
examination of the description of controls applicable to the processing of transactions for
user organizations and, accordingly, we express no opinion on it.

                               By direction of the Deputy Inspector General for Auditing:
Section II: Information Provided by DISA




                   7
A.         Overview of Operations
Defense Information Systems Agency

DISA is a combat support agency responsible for planning, engineering, acquiring,
fielding, and supporting global net-centric solutions to serve the needs of the President,
Vice President, the Secretary of Defense, and other DoD Components, under all
conditions of peace and war. DISA is the provider of global net-centric solutions for the
nation's warfighters and all those who support them in the defense of the nation. The
core services are Acquisition, CS 1 , Enterprise Services, Network Operations, Network
Services, Net-Centric Enterprise Services, and Global Information Grid (GIG) -
Bandwidth Expansion. Chart 1 provides the organizational structure of DISA.

                                 Chart 1. Defense Information Systems Agency


                                                                                           Senior
                                                                  Director                Enlisted
                                                                                          Advisor
                                        Chief of                                                                     Chief
                                         Staff                                                                     Technology
                                                                                                                     Officer

                Congressional
                   Affairs              Protocol
                                                               Vice Director            Component                     NCES
                                                                                        Acquisition                  Program
                                                                                         Executive                    Office
               Inspector General



                                                                                          GIG-BE
                EEO & Cultural                                                            Program
                  Diversity                                                                Office

                                                                                                                Chief Financial
                                                                                                             Executive/Comptroller
               General Counsel
                                           White House                           White House
                                             Situation                          Communication
                                                                                                             Manpower, Personnel,
                                           Support Staff                           Agency
                                                                                                            and Security Directorate
                NSA Liaison to
                   DISA
                                                                                                              Strategic Planning and
                                             GIG                                                              Information Directorate
                                          Enterprise            GIG Combat              GIG
                   Small &
                                           Services               Support            Operations
                Disadvantaged
                                         Engineering            Directorate          Directorate
                   Business
                  Utilization            Directorate                                                        Procurement & Logistics
                                                                                                               Directorate/DITCO


                  Defense                                       Center for             Field
               Spectrum Office                                  Computing             Security
                                                                 Services            Operations
                                                                                      Division

                  Director for
                    Testing                                NCES - Net-Centric Enterprise Services
                                                           GIG - Global Information Grid
                                                           BE - Bandwidth Expansion
                                                           EEO - Equal Employment Opportunity
               Reserve Forces                              NSA - National Security Agency
                                                           DITCO - Defense Information Technology Contracting Organization




1
    Previously called Computing Services Directorate (CSD)



                                                                      9
This report focuses on CS, under the GIG Combat Support Directorate. The FSO, under
the GIG Operations Directorate, and other DISA organizations that support the CS are
included only as they support the CS.

Center for Computing Services

The CS provides computer processing for the entire gamut of combat support functions,
including transportation, logistics, maintenance, munitions, engineering, acquisition,
finance, medicine, and military personnel readiness. With more than 800,000 users, CS
operates over 1,400 applications in 18 geographically separate facilities utilizing more
than 40 mainframes and 3,000 servers. The supported applications: 1) provide command
and control of warfighting forces, 2) facilitate mobility of the warfighters through
maintenance of the airlifter and tanker fleets, 3) provide warfighter sustainment through
resupply and reorder, and 4) manage the medical environment and patient care.

CS features diverse locations, a defense-in-depth philosophy, and dual high-capacity
Defense Information System Network connectivity. CS also utilizes automated systems
management to control computing resources and realize economies of scale. CS has
adopted assured computing philosophies and implemented initiatives in the Unisys and
IBM mainframe environments to ensure that information and mission critical applications
are continuously available to customers. Such initiatives include facility upgrades,
improved software and equipment availability, diverse and redundant communications,
and measures to remotely replicate data. Assured computing, coupled with the ability to
rapidly increase processing and storage capacity via utility contracts, enables DISA to
provide the availability and surge capabilities that customers require.

CS offers computing services on both DISA-owned and customer-owned platforms.
Computing services include computer operations, data storage, systems administration,
security management, capacity management, system engineering, web and portal hosting,
architectural development, and performance monitoring. Computing services are
provided by a highly skilled workforce and performed in state-of-the-art computing
facilities strategically located throughout the continental United States; Stuttgart,
Germany; and Pearl Harbor, Hawaii. DISA facilities are operational 24 hours a day,
7 days a week, 365 days a year, and support both unclassified and classified computing
environments. Services are available to the Services, Defense agencies, and combatant
commanders. Chart 2 provides the organizational structure of CS.

Headquarters. The primary headquarters is located in Falls Church,Virginia. There are
other headquarters elements located in Chambersburg, Denver, Dayton, and Pensacola,
Florida 2 . There is a Director, Deputy Director, Chief of Staff, and two Special Advisors
(one business and one technical), and the following five Divisions.

       Business Management Center. The Business Management Center provides
budgeting, resource management, manpower, personnel, training, business proposals, and
Service Level Agreements. There are three primary elements: CS Headquarters, the Blue
Ridge Center located in Chambersburg, and the Rocky Mountain Center located in
Denver.

       Programs & Implementation Division. The Programs & Implementation
Division manages and directs assigned programs for CS. Programs include the migration

2
    The office in Pensacola provides financial services and technical support and coordinates all transactions
    between the Business Management Centers and Defense Finance and Accounting Service.



                                                       10
of legacy systems to standard systems, standard business practices, and definition of
operational acquisition requirements. The Division Chief sets policy and procedures for
CS project management, and has subordinate branches for Implementation Support,
Mainframe, Mid-Tier, and Communications. This division also has liaison personnel
located at each of the System Management Centers (SMCs).

                              Chart 2. Center for Computing Services


                                  Enterprise                 Director
                                 Economics &                                                  Chief of Staff
                                  Acquisition                                              Executive Secretary
                                                         Deputy Director
                                                                                          Management Assistant
                                                                                          Administrative Assistant




            Business               Programs &            Operations                                              Engineering &
           Management            Implementation           Division                   Logistics Division           Architecture
             Center                  Division                                                                       Division




                                            DECC-PE                                    DECC -SMC
                                             Denver                                   Mechanicsburg


                   DECC-PE
                  Jacksonville                                                       DECC-SMC/CCC
                                            DECC-PE                                   Oklahoma City
                                          Chambersburg
                   DECC-PE
                  Rock Island                                                        DECC-SMC/CCC
                                                                                       Montgomery
                                           DECC-PE
                                          Warner Robin
                                                                                       DECC-SMC
                   DECC-PE                                                               Ogden
                    Norfolk
                                            DECC-PE
                                            San Diego                                     DECC
                   DECC-PE                                                                Europe
                    Dayton


                                            DECC-PE                                       DECC
                                            Huntsville                                    Pacific


                  DECC-ISC
                  San Antonio                                           DECC - Defense Enterprise Computing Center
                                            DECC-ISC                    SMC - Systems Management Center
                                             St. Louis                  CCC - Communication Control Center
                                                                        PE - Processing Element
                   DECC-ISC                                             ISC - Infrastructure Services Center
                   Columbus                                             _______ Direct Control
                                                                        __ __ __ Operational Control




       Engineering and Architecture Division. The Engineering and Architecture
Division conceives and develops alternative architectural strategies for adding new
computer and telecommunications technologies into systems to increase system security,
survivability, interoperability, endurance, and sustainability. This division directs and
performs complex system engineering trade-off analyses for technology and facilities.
This division has elements located at Falls Church and Denver.

        Logistics Division. The Logistics Division advises the Director of CS on all
logistics, acquisition, and facilities management issues and provides command direction
and guidance to execute integrated logistics support for assigned activities and systems.

                                                           11
This division manages logistics support for assigned operational elements of the Defense
Information Infrastructure for the Directors of DISA and CS. This division provides
matrixed, cost-effective, integrated life cycle logistics and acquisition support services to
CS. This division has offices in Chambersburg, Denver, and Dayton. The Logistics
Division also has a liaison officer in each of the four SMCs.

       Operations Division. The Operations Division advises the Director of CS on all
principal operations and has the overall responsibility for issuing operations and security
standards, policies, plans, standard business processes, and standard operating
procedures. This division:

   •   Tasks other CS elements as required to achieve the CS mission.

   •   Manages and assesses operations and security of all assigned DISA information
       processing, communications, and network systems.

   •   Provides appropriate assets in response to contingencies and exercises.

   •   Oversees the overall operational performance and effectiveness of the Defense
       Information Infrastructure efforts implemented within CS as well as assigned
       systems.

   •   Develops and maintains CS programs for configuration management, executive
       software, capacity management, incoming projects, and contingency operations.

   •   Manages the Network Operations for CS and integrates it into the DISA Network
       Operations program.

The Operations Division is organized in three layers – headquarters-level policy and
plans, headquarters-level centralized operations, and direct operations. The direct
operations layers include the operating sites and the Communications Control Centers
(CCCs).

              Operating Sites. The operating sites are called DECCs. The DECCs in
the Continental United States are divided into the following functional designations.

                   1) System Management Centers (SMCs). The primary
                      responsibility of each SMC is systems management and customer
                      support functions for the mainframe and server computing
                      environments. The SMCs are located in Mechanicsburg,
                      Montgomery, Ogden, and Oklahoma City.

                   2) Infrastructure Services Centers (ISCs). The ISCs perform
                      system management for specialized fielding efforts from CS
                      customers. The ISCs are located at Columbus and San Antonio.

                   3) Processing Elements (PEs). Facility management, hardware
                      support, physical security, touch labor for communication devices,
                      and touch labor for media management are the primary
                      responsibilities for each PE. The PEs are located in
                      Chambersburg, Dayton, Denver, Huntsville, Jacksonville, Norfolk,
                      Rock Island, San Diego, and Warner Robins.



                                             12
                  4) Legacy DECC. As a Legacy DECC, St. Louis has retained
                     limited mainframe management and customer support functions.
                     Until further optimization is completed, DECC St. Louis will have
                     both SMC and PE responsibilities.

               Communications Control Centers. The CCCs manage all classified and
unclassified network devices. The CCCs are located at DECCs Montgomery and
Oklahoma City.

Information Assurance Support

Almost all of the DISA elements interact with CS to some degree. The following DISA
elements have the greatest IA interaction with CS.

        Chief Information Officer (CIO). The CIO provides staff support in
accomplishing Information Resources Management duties, mandated by the
Clinger-Cohen Act. The CIO develops Information Resources Management and IT
policies, performs IT management strategic planning, and incorporates and disseminates
architecture and standards guidance, as well as IT investment criteria. The CIO advises
on acquisitions for DISA IT and coordinates with Office of the Secretary of Defense on
Information Resources Management, IT, and IT acquisition matters. The CIO is the
Designated Approving Authority (DAA) for DISA owned and operated internal IT
enclaves and networks. The CIO manages the agency-wide programs for Privacy Act
and records management, and manages implementation of the DISA Electronic Business
and Electronic Commerce.

        Field Security Operations. The mission of FSO is to provide information
systems, network security products, and direct funding and reimbursable services
throughout DoD, including the combatant commands, the Services, and Defense
agencies. The FSO supports the National Command Authority, combatant commanders,
Joint Task Force Computer Network Operations, the Services, and Defense agencies
through Global Network Operations, Computer Emergency Response Capabilities, and
Information System Security Services. The FSO provides such support by directing,
managing, and protecting critical elements of the GIG. In this capacity, the FSO is the
Certifying Authority for the DISA DAA. The FSO:

       •   develops, implements, and maintains security guidance and processes;
       •   conducts full scope security reviews and provides assistance to combatant
           commands, Directorates, Office of the Secretary of Defense, and DISA;
       •   provides certification and accreditation support;
       •   provides security training, security training products, and system
           administrator (SA) certification;
       •   implements security architecture and IA Tools;
       •   provides specialized security database support;
       •   provides security staff support to DISA Global Operations and CS;
       •   provides Regional Computer Emergency Response Team support; and
       •   provides Information Assurance Representatives to combatant commands.




                                          13
In addition, FSO provides the following support to CS;

       •   serves as Information Assurance Manager (IAM) and provides guidance and
           advice to the Director of CS, his staff, and personnel on IA, communications,
           and emanation security;
       •   serves as the Security Manager (SM) and provides guidance and advice to the
           Director of CS, his staff, and personnel on physical, industrial, personnel, and
           information security and security management;
       •   provides technical support on IA to the CS Engineering and Architecture,
           Programs and Implementation, and Operations Divisions;
       •   develops IA and traditional security solutions for the Business Management
           Center for the development of business proposals;
       •   develops and maintains IA and traditional security policies and procedures for
           CS;
       •   prepares and maintains PE Security Plans and Security Standard Operating
           Procedures;
       •   develops, prepares, and maintains the System Security Authorization
           Agreement documents for the ISCs and PEs;
       •   provides advice to the IA staff of the SMCs on the preparation of their
           respective System Security Authorization Agreements; and
       •   prepares Security Technical Implementation Guides (STIGs) applicable to all
           DECCs.

B.     Overview of Control Environment
IA controls are layered and are applied through procedures and physical applications.
Controls are employed to protect resources from theft, loss, damage, inadvertent
disclosure, compromise, and deliberate attempts to gain access by forced or surreptitious
means. Protection is accomplished through the employment of countermeasures to deter,
delay, detect, assess, and respond to unauthorized activity.
CS has the responsibility of providing core services and meeting the CS customer
expectations through professional and consistent operations services and standard
implementation of proven industry best practices. CS is responsible for continual
refinement and analysis of operations performance metrics and practices to identify and
implement opportunities for improvement in the execution of core operations services
and maintaining the integrity of the security posture of the operations environment.
Security Management

Security Review Program Guidance. In general, security review programs focus on
management actions that establish the DAA and the processes that support the
accreditation of an automated information system. DoD implemented the OMB Circular
A-130 requirements for a security program through DoD Instruction 5200.40, “DoD
Information Technology Security Certification and Accreditation Process (DITSCAP),”
December 30, 1997, and other DoD policies. DISA Instruction 630-230-19, “Automated
Data Processing Information Systems Security Program,” July 9, 1996, prescribes policy
and assigns responsibilities for implementing, managing, and maintaining the DISA


                                            14
Information Systems Security Program and implements the DoD programs, including
DITSCAP and designation of DAA. The DITSCAP and resultant Certification and
Accreditation program are major components of DISA’s security review program.

Security Control Program at the DECCs. The DISA Computing Services Security
Handbook Version 3, Change 1, December 2000; the Information Assurance
Vulnerability Alert Handbook; and the STIGs, primarily covers the DoD, Federal
(OMB), and DISA requirement for the primary operational-level guidance for
implementation of automated information system security controls. The DECC security
management organization structure and general business practices support the security
program, including review of security controls.

Security Roles and Responsibility

DISA DAA/CIO. The DISA DAA/CIO retains the overall responsibility for the
Certification and Accreditation as it pertains to the DITSCAP process of the CS sites.

CS IAM. The CS IAM provides guidance and advice to CS on IA, communications, and
emanation security. This position is located within the FSO, but is matrixed to CS. The
CS IAM reports to the Chief of Operations on security matters. In those cases where
there is a disagreement relating to security, the CS IAM can go directly to the Deputy
Director or Director of CS.

CS SM. The CS SM provides guidance and advice to the Director of CS, his staff, and
personnel on physical, industrial, personnel, and information security, as well as security
management. This position is located within the FSO, but is matrixed to CS. The CS
SM reports to the Chief of Operations on security matters. In those cases where there is a
disagreement relating to security, the CS SM can go directly to the Deputy Director or
Director of CS.

Site IAM. IAMs at the sites report to the Deputy Director or Director of the site. The
IAM responsibilities are as follows:

       •   develop and maintain an organization or DoD information system-level IA
           program that identifies IA architecture, requirements, objectives and policies;
           personnel; and processes and procedures;

       •   ensure that information ownership responsibilities are established for each
           DoD information system, to include accountability, access approvals, and
           special handling requirements;

       •   ensure the development and maintenance of IA certification documentation
           according to DoD Instruction 5200.40, by reviewing and endorsing such
           documentation, and recommending action to the DAA;

       •   maintain a repository for all IA certification and accreditation documentation
           and modifications;

       •   ensure that Information Assurance Officers (IAOs) are appointed in writing,
           as required, and provide oversight to ensure that they are following
           established IA policies and procedures. In addition to meeting all access
           requirements specified in DoD Directive 8500.1, all newly appointed IAOs
           shall be U.S. citizens. Foreign nationals who are direct or indirect hires and
           are currently appointed as IAOs may continue in these positions provided they

                                            15
           satisfy the provisions of DoD Directive 8500.1, are under the supervision of
           an IAM who is a U.S. citizen; and are approved in writing by the DAA.
           When circumstances warrant, a single individual who is a U.S. citizen may fill
           both the IAM and the Information Assurance Officer (IAO) roles;

       •   ensure that all IAOs and privileged users receive the necessary technical and
           IA training, education, and certification to carry out their IA duties;

       •   ensure that compliance monitoring occurs, and review the results of such
           monitoring;

       •   ensure that IA inspections, tests, and reviews are coordinated;

       •   ensure that all IA management review items are tracked and reported;

       •   ensure that incidents are properly reported to the DAA and the DoD reporting
           chain, as required, and responses to IA-related alerts are coordinated; and

       •   act as the primary IA technical advisor to the DAA and formally notify the
           DAA of any changes impacting the DoD information system's IA posture.

Site IAO. IAOs at the sites report to the IAMs of the site. The IAO responsibilities are
as follows:

       •   assist the IAM in meeting the duties and responsibilities outlined above;

       •   ensure that all users have the requisite security clearances and supervisory
           need-to-know authorization, and are aware of their IA responsibilities before
           being granted access to any DoD information system;

       •   initiate protective or corrective measures, in coordination with the IAM, when
           an IA incident or vulnerability is discovered;

       •   ensure that IA and IA-enabled software, hardware, and firmware comply with
           appropriate security configuration guidelines;

       •   ensure that DoD information system recovery processes are monitored and
           that IA features and procedures are properly restored;

       •   ensure that all DoD information system IA-related documentation is current
           and accessible to properly authorized individuals; and

       •   implement and enforce all DoD information system IA policies and
           procedures, as defined by its security certification and accreditation
           documentation.
Risk Assessments

CS implemented a risk assessment process to identify and manage risks that could affect
customer organizations. This process requires a formal risk assessment, which is part of
the System Security Authorization Agreement. The process also includes an external and
internal compliance validation and procedures to maintain an acceptable level of risk.



                                            16
Formal Risk Assessment. The FSO prepares the formal risk assessment for each CS
site. The threat is determined by validating countermeasures that have been implemented
to determine the residual risk. Various tools are used to validate the effectiveness of the
implemented countermeasures, including the SRR and the vulnerability scan used to
determine the effectiveness of the network, systems, physical, personnel, information,
and industrial security procedural countermeasures. These can be conducted by the FSO
or as self-assessments performed by site personnel. Environmental and facility reviews
conducted by CS Facility Engineers are used to determine the effectiveness of facility
and environmental countermeasures. Various Federal Emergency Management Agency
web sites are used to determine weather, climatic, and natural threats.

The IAMs for DECCs are responsible for reviewing and identifying pen and pencil
changes to risk assessment documents on an annual basis. If there are no changes noted,
the formal risk assessment document is not re-dated or re-signed. The CS IAM is
responsible for reviewing and making changes to the DECC PEs risk assessment
documents as they occur. The formal risk assessment is a required appendix to the
System Security Authorization Agreement under the DITSCAP by DISA DAA (the
DISA CIO). A complete formal review and documented risk assessment is only
conducted every three years 3 .

Mission Assurance Category. The mission assurance category (MAC) reflects the
importance of information relative to the achievement of DoD goals and objectives,
particularly the warfighter combat mission. MACs are the basis for determining
availability and integrity control requirements. DoD has three defined MACs.

       •   MAC I. Systems handling information that is vital to the operational readiness or
           mission effectiveness of deployed and contingency forces in terms of both content
           and timeliness. The consequences of loss of integrity or availability of a MAC I
           system are unacceptable and could include the immediate and sustained loss of
           mission effectiveness. MAC I systems require the most stringent protection
           measures.

       •   MAC II. Systems handling information that is important to the support of
           deployed and contingency forces. The consequences of loss of integrity are
           unacceptable. Loss of availability is difficult to deal with and can only be
           tolerated for a short time. The consequences could include delay or degradation
           in providing important support services or commodities that may seriously impact
           mission effectiveness or operational readiness. MAC II systems require
           additional safeguards beyond best practices to ensure assurance.

       •   MAC III. Systems handling information that is necessary for the conduct of
           day-to-day business, but does not materially affect support to deployed or
           contingency forces in the short-term. The consequences of loss of integrity or
           availability can be tolerated or overcome without significant impacts on mission
           effectiveness or operational readiness. The consequences could include the delay
           or degradation of services or commodities enabling routine activities. MAC III
           systems require protective measures, techniques, or procedures generally
           commensurate with commercial best practices.



3
    As a result of the transformation, most of the formal risk assessments will need to be updated to reflect
    the new environment.



                                                        17
Compliance Validation

DISA compliance validation is conducted both externally by the FSO and within CS
using automated scripts and the IA connection approval process. The results are
maintained in the Vulnerability Management System (VMS) and Security Automated
Database databases. CS categorizes the findings or vulnerabilities into four categories,
based on severity.

   •   Finding Category I. Any vulnerability that may result in a total loss of
       information or which provide an unauthorized person or software immediate
       access into a system, gains privileged access, bypasses a firewall, or results in a
       denial of service.

   •   Finding Category II. Any vulnerability that provides information that has a high
       potential of giving access to an unauthorized person, or provides an unauthorized
       person the means to circumvent security controls.

   •   Finding Category III. Any vulnerability that provides information that
       potentially could lead to an unauthorized access.

   •   Finding Category IV. Any vulnerability that is all other possibilities that
       contributes to degraded security.

External Compliance Validation. The external compliance validation is conducted by
the FSO. Because of the number and size of the sites, a complete review of each site
cannot be made on an annual basis. The complete review is conducted during a
three-year cycle to coincide with the formal accreditation cycle. The number of FSO
visits is dependent on reviewing thirty-three percent of each site’s assets on an annual
basis. Per DITSCAP, accreditation decisions are made for a maximum of a three-year
period. Annual reviews conducted by the FSO are known as Information Assurance
Readiness Reviews. The Information Assurance Readiness Review includes a review of
procedures, documentation, SRRs, and a vulnerability or penetration scan. All
Information Assurance Readiness Review results are entered into VMS and briefed to the
responsible senior management and security staff as well as the Director, CS.

System Readiness Reviews. The SRRs are manual (the traditional SRR) or automated
checks (the technical SRR).

       Traditional SRR. The traditional SRR determines whether policies and
procedures on physical, information, personnel, industrial, communications, and
emanations comply with DoD regulations and DISA instructions. It also validates
whether policies and procedures are correctly and adequately implemented.

        Technical SRR. The technical SRR uses automated checks of network devices,
firewalls, intrusion detection systems, operating systems, databases, and web applications
to verify that standard configuration settings are in accordance with applicable STIGs.

        Vulnerability Scans. The Vulnerability Assessment Process utilizes a
commercial automated scanning tool, Internet Security Scan, that checks for known or
demonstrated vulnerabilities. The scan is a two-step process. The first step is external to
the perimeter of the enclave and determines the robustness of perimeter defenses. The
second step is internal of the perimeter of the enclave and determines the robustness of
the defense of each device within the enclave. Scan results, when associated with the
communications, server, database, and web applications running on a device, have been

                                            18
adapted to feed into the SRR database, which is a part of the VMS database. Where
findings from the scan cannot be associated with a specific device, it is called a
Vulnerability Assessment Process Report and is associated with the network of that
enclave.

Internal Compliance Validation. There are two internal compliance validation
processes. The first validation process is an automated review process that utilizes
scripts developed by the FSO to test server compliance. Server operating systems
managed locally and remotely by SMCs Mechanicsburg, Montgomery, Ogden, and
Oklahoma City are subject to self-assessment automated scripts that are run on a weekly
basis. The results are posted to the Security Automated Database and remediation
actions are tracked. The results of the reviews are forwarded to the appropriate SAs and
their supervisors.

The second validation process is the IA connection approval process. The IA connection
approval process uses FSO SRR scripts and checklists for servers, databases, and web
services to complete self-assessments of new servers or software upgrades. The
self-assessment results are fed into the SRR database and are forwarded to the connection
approval authority for review and approval. To obtain approval, servers, databases, or
web services must have no open Category I findings as the results of the FSO SRR
scripts and checklists, and at least 90-95 percent compliance 4 with all possible Category
II and III findings. The senior person at the DECC SMC, and DECC ISC is the
approving authority for those organizations. The CS, Chief of Operations, is the
approving authority for all DECC PEs and all CS Headquarters Divisions.

Vulnerability Databases. CS uses two databases to track vulnerabilities, VMS and
Security Automated Database. VMS is maintained by the FSO, while the Security
Automated Database is maintained by SSO Montgomery. The two databases do not
share information at this time.

        Vulnerability Management System. VMS is a DoD and DISA vulnerability
management system. The DoD portion of the system is a database known as the
Information Assurance Vulnerability Management database. The Information Assurance
Vulnerability Management database is used by DoD to track acknowledgement and
compliance with alerts released under the Information Assurance Vulnerability
Management program as directed by Chairman of Joint Chiefs of Staff
Instruction 6510-01D. The DISA portion of VMS has two databases; one is the SRR
database and the other is the Vulnerability Compliance Tracking System database.

                SRR Database. The SRR database identifies SRR findings, tracks
remediation of those findings, and has an automated waiver process for findings that
cannot be fixed within an established timeframe. The CS IAM is responsible for
checking VMS to determine who reviews open SRR findings and determines what the
plan of action is to remediate the findings. The CS IAM also reviews requests for
waivers to open SRR findings and renders a concurrence decision to the DISA approving
authority.

The timeframe for correcting findings is 5 days or immediately for Category I, 180 days
for Category II, and 270 days for Category III and IV vulnerabilities. The CS IAM
notifies the responsible site IAM of any concerns and assets that are not in compliance


4
    The percentage varies based on the technology.



                                                     19
within allotted timeframes. The status of open Category I findings and findings that are
not in compliance within the allotted timeframes are briefed to the Director, CS and
primary CS staff 5 on a weekly basis.

               Vulnerability Compliance Tracking System database. The
Vulnerability Compliance Tracking System database tracks DISA’s acknowledgement
and compliance with the DoD Information Assurance Vulnerability Management 6
program. Vulnerability Compliance Tracking System has a registry of all assets with
associated operating systems and utility software, and identifies the owner of the asset
and the responsible primary and alternate SAs. As alerts are released in the Information
Assurance Vulnerability Management program, the Vulnerability Compliance Tracking
System notifies the SA and IAM of alert by email. The SA is responsible for
acknowledging receipt of the notification and updating the status of Information
Assurance Vulnerability Management releases in the Vulnerability Compliance Tracking
System.

The CS IAM is responsible for checking VMS to determine who is not in compliance
with Information Assurance Vulnerability Management releases. The CS IAM notifies
the responsible site IAM or IAO of any concerns and assets that are not in compliance
within seven working days of the compliance date. The status of compliance is briefed to
the Director of CS and primary staff on a weekly basis. The CS IAM also reviews
requests for extensions to compliance dates and recommends a concurrence or non-
concurrence to the approving authority, the DISA DAA. The FSO provides technical
reviews for the CS IAM on request.

        Security Automated Database. The Security Automated Database was created
to track and remediate automated SRR self-assessment issues. The automated SRR
program uses automated scripts developed by the FSO to conduct SRRs across the
network using Secure File Transfer Protocol. The FSO has SRR scripts for all Windows,
UNIX, LINUX, Oracle Database, and Standard Query Language databases and is moving
toward running weekly SRRs on all servers, Oracle Databases, and Sequel Server
Database by the end of 2005. Automated SRR scripts are limited in that they cannot
perform the manual checks of the STIGs. Automated SRR scripts only test the
configuration settings of the hardware and software associated with the IT. Operating
systems scripts are capable of checking most of the configuration settings while the
database scripts are capable of checking only approximately 35 percent of the
configuration settings. The FSO and CS are working collectively on improving the SRR
scripts and developing scripts for the other operating systems, the mainframe (IBM and
Unisys) operating systems, and web software.

The security staff at the SMCs reviews and updates findings from the weekly automated
SRR and monitors the remediation, especially any Category I and II findings. All
Category I findings are entered in the trouble ticket system, Trouble Ticketing
Management System, and flagged for immediate remediation. Site directors are briefed
on the results of the automated scripts on a weekly basis and the Director, CS and
primary CS staff are briefed on the results of the automated scripts on a monthly basis.



5
    Deputy Director, Chief of Staff, and the Division Chiefs for Business Management Center, Programs and
    Implementation, Engineering and Architecture, Operations, and Logistics.
6
    Includes alerts, bulletins, and advisories.



                                                    20
Information Assurance Monitoring

IA monitoring occurs at the enclave perimeters as well as within systems, database, and
web software running within those systems. In addition to the external FSO reviews and
the internal CS reviews, CS networks are also subject to monitoring by the Global
Network Security Center as part of the GIG monitoring and internal network monitoring.

GIG Monitoring. There are network Intrusion Detection Systems (IDSs) located on the
GIG that monitor standard security policy. The GIG network IDS, monitored by Global
Network Security Center, is known as the Joint Intrusion Detection System. The Center
monitors all Joint Intrusion Detection Systems on the GIG within the continental United
States. There are various other centers located around the world and all centers feed into
a DoD Global Network Center Network Defense. This concept can identify any
information threat on an isolated, regional, or global basis. The Global Network Security
Center notifies any element, to include CS, of any type of potential unauthorized attack
or access. The Global Network Security Center works with the CS CCCs and individual
site IA staff to help identify, isolate, investigate, and remediate potential threats.

CS Enclave Perimeter Monitoring. All CS enclave perimeters have a layered defense
that consists of an access control list on the perimeter router, firewalls, and a network
IDS. The security staff located in the CCCs develops the security profiles for the enclave
perimeter router, perimeter firewall and perimeter network IDSs and monitor their
respective reports and audit logs for unauthorized access or activities. This is for the
entire continental United States-based CS network. The security staffs located at DECCs
Europe and Pacific perform the same tasks locally for their respective enclave perimeter
devices. Suspected incidents are investigated in concert with trusted agents from the
customer base or data owners to determine the legitimacy of the incidents. If the
suspected incident cannot be validated as authorized, they are reported to the Computing
Services Cell within the DISA Network Operation Center and to the Global Network
Security Center. The Global Network Security Center then directs all actions for this
incident and closes it or turns it over to the appropriate investigative agency for action.
The Computing Service Cell reports the incident to Computing Services Issue Center,
within the CS Operations Division.

The objective of layered defense is to provide a deny-by-default to the perimeter of the
enclave. Deny-by-default can be defined as allowing those addresses, ports, protocols,
accesses and actions that are authorized, while establishing a denial of those that are not
authorized.

Enclave Monitoring. Security staff at the DECCs review system and database audit
records weekly as a minimum for suspicious actions. They perform preliminary inquiries
with the customer, data owners, and others to determine the validity of suspicious
actions. If an action cannot be validated, and identifies unauthorized privilege, or user-
level action is identified, the action is reported to the Global Network Security Center
and the CS Global Network Security Liaison Officer, within the CS Operations Division.

Some of these sites also monitor the system and database audit reports using a host-based
IDS. Validated unauthorized privilege or user accesses are reported up the same chain as
the other incidents. All security incidents reported to the Computing Service Issue
Center are briefed to the Director and Chief of Operations for CS every morning Monday
through Friday.


                                             21
FSO Monitoring. The FSO conducts external vulnerability scanning twice a year for the
NIPRNET and SIPRNET connections at all sites from Chambersburg. If the scan does
not penetrate or identify a weakness in the enclave perimeter, the scan is terminated. If
the scan does identify a weakness in the enclave perimeter, the scan continues to further
identify weaknesses. The results are entered into VMS and are briefed to the site director
and senior staff.

Segregation of Duties

Mainframes. In the mainframe environment, the IAO applies system security via the
access control program. For the Unisys mainframe, the access control program is a
product known as SIMON. The IBM mainframe Access Control Program products are
Resource Access Control Facility, Access Control Facility 2, and Top Secret. The IAO
also monitors security audit records to identify security concerns.

Servers. The SAs implement security for server, operating systems, databases, and web
servers and web-based applications; primarily UNIX, Windows, Solaris, and Tandem.
The IAO identifies each user’s security profile, provides the SA with requirements, and
then validates that the profile has been implemented as prescribed. The IAO also
monitors security audit records to identify possible security concerns.

Personnel Controls

All civilian personnel are subject to Federal Civilian Personnel Systems. All personnel
must meet employment requirements and are subject to a favorable personnel security
investigation. An authorization document, known as the Joint Table of Distribution
authorizes all government (civilian and military) positions. This document also identifies
the sensitivity, IT level, and security clearance requirement for each position. These
three elements determine the type of investigation required and the type and frequency of
periodic reinvestigations.

All personnel are subjected to various levels of personnel security investigation, which is
based on the level of privileges they have within systems. All personnel possess Secret
clearance with IT-2 level, except for the SAs. The SAs are required to have Secret
clearance with IT-1 level

All personnel security is managed and monitored by the CS SM in Chambersburg, in
concert with site SMs. The CS SM submits all personnel security actions through the
DISA Security Office located at DISA Headquarters. The DISA Security Office issues
requests for additional information, intent to deny or revoke, and actual revocations of
security clearances or favorable investigations.
Environmental Controls

The Facilities Engineering Branch, a CS Headquarters organization in Denver establishes
facility standards for the DECCs on electrical distribution, uninterrupted power supply,
fire detection and fire suppression, and climate control in accordance with national
standards.

Electrical Distribution. Each site has at least two electrical power feeds either from the
installation or another commercial source. There are automatic voltage controls at all
computing facilities and alerts of any potential electrical problems. There is a master
power switch located at the primary entrances in all computer facilities.


                                            22
Uninterrupted Power Supply. Each site has an uninterrupted power supply consisting
of constantly charged batteries in case of power disruption. The uninterrupted power
supply is constantly monitored and alerts staff of any potential problem. Each site is also
equipped with generators that provide an automatic start-up power source. Backup
power sources are tested on a periodic basis to ensure that they function properly and
provide sufficient electrical power to meet site operating requirements. Additional fuel is
stored on site for sustained backup operations. The fuel is tested on an annual basis for
contamination.

Fire Detection. Most administrative areas are protected by fire detection systems that
alarm either locally or at a responding fire department. All computing facilities are
protected by automatic fire detection systems that alarm at the responding fire
department.

Fire Suppression. All administrative areas are protected by either automatic or manual
fire suppression systems. All computing facilities are protected by automatic fire
detection systems (smoke or fire detectors) that respond to heat or smoke to suppress
fires.

Fire prevention is an inherent responsibility of every CS employee and requires alertness
and cooperation from all individuals and agencies that may be in the building. Each site
follows the facility emergency plan for the protection of all Government employees and
private industry tenants.

Climate Control. There are mechanical systems that provide the constant and desired
temperature, humidity, and air particles. The climate control system is constantly
monitored and alerts of any potential problems. Many of the computer facilities are
equipped with water detection systems and a water drainage system to handle excess
water under the raised floor area.

Physical Security Controls

Administrative Areas. All buildings and administrative areas have limited entry points
and all are protected by automated access card systems or by guards located at the
entrances. In some case, both are used; guards protect the area during normal duty hours
from Monday through Friday, and the automated access card system controls access
during all off-duty hours. All personnel must wear identification badges while in the
area. Visitors to all sites must be signed into the administrative area and obtain local
badges that must be displayed while in the buildings. The issuance of an escort-required
or a non-escort required visitor badge depends on the validation of visitor’s investigation
type and security clearance.

Computer Facility. All computer facilities have implemented the following physical
controls.

   •   Computer facilities have true floor-to-ceiling walls or alarms that dispatch a
       response team.

   •   Limited entrance and exit doors equipped with automated systems that require an
       access card and personal identification number to gain entry.

   •   Emergency exits are equipped with panic release bars that have a ½-inch deadbolt
       throw. Emergency exits do not have external opening devices.


                                            23
   •   Doors and windows are equipped with intrusion detection systems that dispatch a
       response team.

   •   Doors are constructed of metal, solid wood, or glass. Door hinges are protected
       from removal by set screws, pins, or spot welds.

   •   Personnel authorized unescorted access are listed on access rosters.

   •   Visitors are required to sign into and out of the facility; and those that do not
       possess the required clearance must obtain unescorted badges and be escorted at
       all times while in the facility.

   •   Walls inside the building that are external to computing areas have signs posted
       identifying the area as a “Restricted Area.”

Facility Support Areas. Access to facility support areas is controlled either by fencing,
automated access control systems, or key locking devices. These areas are not
considered “Restricted Areas.” Most of the facilities have closed circuit television
coverage of all doors to computer facilities, buildings, and facility support areas inside
and outside of the buildings. A local guard monitors the cameras at some sites. Where
cameras are not monitored, access is recorded and surveillance tapes are maintained for
at least 30 days.

Information Security Controls

Only properly cleared personnel with a need-to-know are granted access to classified
information. All classified paper documents are stored in General Services
Administration (GSA) approved security containers.

Combinations to approved storage areas and security containers are restricted to only
those who need to gain access, and a DISA Form 190A identifies who holds the
combinations. The combination is treated as classified information and must be located
in another security container. All security containers and approved storage areas must
have a Standard Form 702 on the outside and must be annotated with the initials of the
person opening the containers as well as the date and time the container was open and
closed. Security containers are to be inspected daily and annotated on the Standard Form
702 to prevent security breach.

All classified transmissions that egress the perimeter router are encrypted using National
Security Agency Type I encryption devices and keying material. In some cases,
transmissions inside the enclave are not encrypted but are required to be in an
appropriate, protected distribution systems.

The Federal Information Processing Standards Publication 140-2 compliant encryption is
used to protect the transmission of unclassified information, when required by the
customer in the Service Level Agreement.

All computing areas that process classified information must be an approved classified
information storage area or continuously be manned by properly cleared personnel who
can observe every device (computing and networking) processing classified information.

Unless requested by the customer, all information stored on magnetic media is not
encrypted. National Security Agency devices are used for classified information and
Federal Information Processing Standards Publication 140-2 compliant devices are be

                                            24
used for unclassified information. All classified and unclassified information must be
destroyed using approved methods of destruction in accordance with DoD
Regulation 5200.1-R.

Industrial Security Controls

Contracts must address security requirements. The contract should identify:

     •   the requirement for IT level and the personnel security investigation;

     •   the requirement for the contractor to provide visit request information for all
         contractor personnel that need to visit a government location;

     •   the requirement to comply with all security policies and procedures at
         government locations;

     •   the configuration requirement for contractor-provided equipment that will be
         connected to government networks and enclaves, if no government-furnished
         equipment is provided; and

     •   the requirement for a DD Form 254, for contracts that require access to classified
         information, that outlines the required level of security clearance, where classified
         information can be accessed, and any special instructions.


C.       Information and Communication
Information Systems Overview

The concept of operations for the CS emphasizes and describes a “customer focused”
environment, organized with SMCs, OSTs, and production operations environments
designed to provide a problem resolution and a situational awareness posture over all
domains of a dynamic production environment that is operational 24 hours a day, 7 days
a week, and 365 days a year.
CS customer support demands include multiple classifications of secure environments,
multi-vendor UNIX environments, Intel-based server environments, IBM and Unisys
mainframe environments, multiple commercial database environments, commercial
off-the-shelf applications, government off-the-shelf applications, customized legacy
systems, web-based systems, voice-based systems including commercial telephone
switch support, private branch exchange support, and multiple communications
infrastructures. CS must have knowledge of the products, services, and applications used
by its customer base, as well as information regarding the internal health of the CS IT
environment to provide professional, knowledgeable, and proactive support.
Communication

CS has implemented various methods of communications to ensure that all employees
understand their individual roles and responsibilities. These methods include New
Employee Orientation, Individual Development Plan, CS Plan of the Week that
summarizes various significant events, and the use of electronic mail messages to
communicate time-sensitive messages and information. The Director of CS holds a


                                              25
weekly staff meeting with all CS Division Chiefs. All site Chiefs also hold periodic staff
meetings as appropriate. Every employee within CS has a written position description,
and every position description includes details of what responsibilities are required of the
individual.

The CS Business Management Center is responsible for Headquarters level customer
relations and acts as the face to the customer.

Each operating site within CS maintains detailed records of problems reported by
customer and problems or incidents noted during processing and monitor such items until
they are resolved. The CS Operations Division Network Operations is responsible for the
up-channel reporting of operations incidents. Categories of incidents have been
identified as high impact, high visibility, or high interest requiring detailed reporting to a
defined chain of senior management. Specific information requirements have been
defined for the incident reports to help ensure completeness, accuracy, and
understandability. Standard trouble tickets that provide the basic information must be
cleansed to ensure that these informational requirements are met and consolidated into
the defined incident reporting format.


D. Control Objectives and Related Control Activities
CS control objectives and related controls are included in Section III of this report,
“Control Objectives, Controls Activities, and Tests of Operating Effectiveness,” to
eliminate the redundancy that would result from listing them in this section and repeating
them in Section III. Although the control objectives and related controls are included in
Section III, they are nevertheless, an integral part of CS control descriptions.


E. User Control Considerations
Computing Services User Controls

CS and its customers share the controls over the users. This shared environment
normally is delineated between the computing environment and the applications.

CS has established the following user controls for the computing environment.

   •   Each user has individual user identification for all platforms.

   •   Each user has individual user password authentication for open-system servers.

   •   Each user has individual user identification, password, and secure-identification
       for IBM mainframes.

   •   All privileged users should use the client-based Virtual Private Network or the
       Out-of-Band Network. Where there is an exception, privileged users must use
       encryption-protected access method (i.e. Secure Socket Layer or Secured Shell)

   •   All system access, by human or machine, requires DD Form 2875 (System
       Authorization Access Request).


                                             26
   •   All users must acknowledge their responsibility for the user identifications and
       passwords.

   •   Each supervisor must acknowledge his subordinates’ user requirement and IT
       level.

   •   The data owner or his designated representatives must acknowledge access for the
       data user.

   •   The SM must validate the user’s security investigation and security clearance.

   •   Each user must attend initial and periodic IA awareness training.

   •   The SAs have passed the required security certification testing as a Level I, II or
       III as appropriate.

   •   The user systems will time out after 15 minutes if not in use.

   •   Lock-out of user identification and password after three incorrect log-on attempts.

Customer User Controls

Customers are expected to have the following general user controls, at a minimum, built
into their applications. The specific user controls are outlined in the Service Level
Agreements.

   •   Individual user identification.

   •   Individual user password or Public Key Infrastructure authentication.

Service Level Agreements

A service level agreement is a contract between a service agency and a customer agency
that defines the parameters of the services. The Service Level Agreement defines the
services to be delivered, problem management, and customer duties and responsibilities.
The Service Level Agreements outline, at a minimum, the responsibilities over system
access, security controls, data disposition and sharing, data encryption, and data backup
for both CS and the customers.




                                            27
Section III: Control Objectives, Control Activities, and Tests of
                    Operating Effectiveness




                               29
Entity-wide Security Program
Control Techniques                            Test of Operating Effectiveness                Results of Tests of Operating
(Related Controls Placed in Operation)                                                       Effectiveness
Control Objective:
SP-1: Controls provide reasonable assurance that security risks are periodically assessed.

Periodically assess security risks against
federal requirements.

A formal risk assessment is developed for     Inspected policies and procedures for          Risk assessments at two out of six sites did
each site and conducted once every 3 years.   performing risk assessments and determined     not conform to the FSO Risk Analysis
Formal risk assessments are updated           these policies and procedures were in place.   Guide.
annually based on annual reviews. The         Inquired of CS personnel to determine
results of the traditional SRRs, technical    whether the policies and procedures were
SRRs, Internet Security Scans, Information    being followed. Inspected the most recent
Assurance Vulnerability Management, and       risk assessments to determine whether they
the effectiveness of implemented              were performed in accordance with the
countermeasures are used to determine the     policies and were approved by
residual risk.                                management.

Final risk determinations and related         Inquired of the objectivity of the personnel   No relevant exceptions noted.
management approvals are documented and       who performed the risk assessments to
maintained on file.                           determine they were independent of the
                                              systems that were reviewed.




                                                                 31
Control Techniques                            Test of Operating Effectiveness                 Results of Tests of Operating
(Related Controls Placed in Operation)                                                        Effectiveness
Control Objective:
SP-2: Controls provide reasonable assurance that an entity-wide security program plan is documented, approved, and kept
current.

A security plan is documented and
approved.

The security plan is documented and           Inspected site security plans to determine      One out of six sites did not have a current
addresses topics prescribed in OMB            whether the following had been addressed:       security plan that was documented and
Circular A-130, Security of Federal           • management review of the plan on a            approved.
Automated Information Resources. The              regular basis, at least annually, to
security plan is validated for completeness       evaluate existing policies and processes
and applicability during the FSO’s                and to provide consistency and support
Traditional SRR.                                  for the goal of uninterrupted operations;
                                              • management’s approval of the security
The SMCs security plan is developed by the        plan in writing; and
site SM or IAM and signed by the senior       • guidance related to security plans for
official on site.                                 general support systems, as outlined in
                                                  OMB Circular No. A-130 Appendix III.
The security plan is kept current.

The security plan is reviewed annually and    Inspected the security plan to evaluate:        For two out of six sites, the security plans
updated annually or as necessary.             • factors that caused the plan to be            did not incorporate current guidance
                                                  updated;                                    provided by DoD Instruction 8500.2 and
                                              • plan was current;                             OMB Circular A-130 Appendix III.
                                              • supporting documentation existed for
                                                  any changes during the last year;
                                              • documentation existed to depict how
                                                  systems and applications were
                                                  interconnected, including connection
                                                  rules and requirements;
                                              • documentation existed to sufficiently
                                                  assess the impacts of any changes made;
                                                  and

                                                                32
Control Techniques                             Test of Operating Effectiveness                 Results of Tests of Operating
(Related Controls Placed in Operation)                                                         Effectiveness
                                               •   plans covered the current topics outlined
                                                   in OMB Circular A-130 Appendix III,
                                                   and DoD Instruction 8500.2.
Control Objective:
SP-3: Controls provide reasonable assurance that a security management structure is established and security responsibilities
are clearly assigned.

A security management structure has
been established.

The CS Security Handbook defines the           Inquired of CS management to determine          No relevant exceptions noted.
responsibilities of individuals who comprise   whether:
the security management staff.                    • a security staff was designated for
                                                      each site; and
                                                  • clear assignments of information
                                                      security responsibilities that
                                                      addressed information security
                                                      roles, training, and security
                                                      clearances existed.
Information security responsibilities are
clearly assigned.

The roles and responsibilities of the IAM,     Inquired of CS management whether               No relevant exceptions noted.
IAO, and SM are outlined in appointment        security responsibilities had been clearly
orders.                                        assigned to the following:
                                               • information resource owners and users,
                                               • information resources management and
                                                   data processing personnel,
                                               • senior management, and
                                               • security administrators.




                                                                 33
Control Techniques                              Test of Operating Effectiveness                Results of Tests of Operating
(Related Controls Placed in Operation)                                                         Effectiveness
Owners and users are aware of security
policies.

CS personnel must take security awareness       Inquired of CS management about the            Three out of six sites did not have an
training, workplace violence training, and      existence of an ongoing security awareness     effective security awareness program that
antiterrorism training before gaining access    program for current employees and an           provided guidance to users regarding the
to any system. Initial security awareness       introductory program for new employees.        importance of security.
training is provided to all users. Training
completion is recorded.

Posters are utilized throughout the CS          Inspected other means used by CS to            No relevant exceptions noted.
facilities to increase security awareness on    promote security awareness.
various security-related topics, such as
viruses, freeware or shareware, and unique
passwords.

CS employees are required to sign               Inspected employees’ non-disclosure            Two out of six sites did not have effective
non-disclosure agreement forms to evidence      agreement forms to evidence their              procedures implemented to determine that
their understanding and acceptance of           understanding and acceptance of                employees and contractors complete a
confidential information disclosure             confidential information disclosure            non-disclosure agreement form to evidence
restrictions and requirements.                  restrictions and requirements.                 their understanding and acceptance of
                                                                                               confidential information disclosure
                                                                                               restrictions and requirements.
An incident response capability has been
fully implemented.

The CS Security Handbook provides               Inquired of site personnel regarding their     Personnel at four out of six sites were not
guidance on handling incidents, incident        familiarity with their specific                familiar with their responsibilities for
reporting structure, and prioritization of      responsibilities for intrusion detection and   intrusion detection and incident response.
incidents that are consistent with attributes   incident response.
suggested by DoD Instruction 8500.2.




                                                                   34
Control Techniques                               Test of Operating Effectiveness                Results of Tests of Operating
(Related Controls Placed in Operation)                                                          Effectiveness
Control Objective:
SP-4: Controls provide reasonable assurance that effective security-related personnel policies have been implemented.

Hiring, transfer, termination, and
performance policies address security.

The CS Security Handbook prescribes              Inspected the hiring policies and procedures   No relevant exceptions noted.
guidelines addressing personnel security         for employees and for contractors, including
controls and position sensitivity designations   reviewing the process for performing
for employees and contractors, documenting       background investigations and contacting
and updating designations, investigation and     references for new hires.
reinvestigation requirements, adjudication,
clearance procedures, and termination
processing.

Personnel security checks to determine that a    Inspected policies and procedures in place     No relevant exceptions noted.
valid and current personnel security             for performing reinvestigations of current
investigation has been conducted for each        employees and contractors.
person at the site based on the individual’s
duties and tasks.

Termination requires debriefing and              Inspected CS policies and procedures in        Three out of five sites did not implement
revoking of all access. Termination              place for individuals departing CS, or where   formal policies for debriefing and
debriefing must be signed and maintained.        systems access was no longer required.         removing all access.

Employees have adequate training and
expertise.

Training and certification requirements for      Inquired of CS management whether              Personnel at three out of five sites did not
users and SAs are established by DoD and         employees were receiving appropriate           receive appropriate training to perform
DISA policies.                                   training and had the necessary skills to       their duties.
                                                 perform assigned job functions.


                                                                    35
Control Techniques                             Test of Operating Effectiveness               Results of Tests of Operating
(Related Controls Placed in Operation)                                                       Effectiveness
The CS Security Handbook outlines several      Inspected documentation regarding training    Three out of five sites did not document
different certification courses that SAs and   programs to determine whether employee        employee training and professional
security management should take depending      training and professional development         development activities.
on the designated level                        activities were documented and monitored.

Control objective:
SP-5: Controls provide reasonable assurance that security program effectiveness is monitored and changes are made as needed.
Management periodically assesses the
appropriateness of security policies and
compliance with them and ensures that
corrective actions are effectively
implemented.
The FSO performs SRRs as a part of its IA      Inquired of CS management whether a           No relevant exceptions noted.
review and certification and accreditation     comprehensive vulnerability management
process. The FSO also conduct annual           process was in place to address:
reviews to assess the appropriateness of the      • systematic identification and
security policies and compliance with them.           mitigation of software and hardware
CS and FSO have visibility over all                   vulnerabilities,
identified vulnerabilities.                       • independent validation of mitigation
                                                      through inspection and automated
                                                      vulnerability assessment,
                                                  • acquisition of vulnerability
                                                      assessment tools, and
                                                  • deployment of trained personnel.

Automated scripts are performed on a           Inquired of CS management whether             No relevant exceptions noted.
weekly basis for servers at the four main      regular internal and external assessments
SMCs. The sites also perform vulnerability     were conducted.
assessments.

New systems are reviewed for compliance        Inspected whether new systems and major       For one out of five sites, new systems and
with DoD and STIG policy prior to              upgrades were tested prior to connection to   major upgrades were not fully tested and
connection to the network.                     the network and authorized.                   authorized prior to connection to the
                                                                                             network.
                                                                 36
Access Control
Control Techniques                                 Test of Operating Effectiveness                Results of Tests of Operating
(Related Controls Placed in Operation)                                                            Effectiveness
Control Objective:
AC-1: Controls provide reasonable assurance that information resources are classified according to their criticality and
sensitivity.

Resource classifications and related
criteria have been established.

CS has defined the criticality of its assets       Inspected the policies and procedures that     No relevant exceptions noted.
and the policies to the MAC II sensitive           CS used to develop and establish data and
level.                                             resource classification rankings for
                                                   adequacy and effectiveness.
Owners have classified resources.

CS has classified the criticality of its assets.   Inquired whether assets had been classified,   No relevant exceptions noted.
                                                   and the classifications were documented
                                                   and current.

CS customers communicate classification            Inquired of site IAMs how customers            No relevant exceptions noted.
levels to CS for their applications.               communicated classification levels for their
                                                   application that were in accordance with
                                                   the specific risk assessment results.




                                                                      37
Control Techniques                             Test of Operating Effectiveness                Results of Tests of Operating
(Related Controls Placed in Operation)                                                        Effectiveness
Control Objective:
AC-2: Controls provide reasonable assurance that a current list of authorized users and their respective access rights are
maintained.

Design Weakness:
CS does not have control procedures in place to ensure resource owners have identified authorized users and their respective access
rights. Specifically, control procedures are needed to ensure the following: (a) access rights associated with role-based user accounts are
fully established across CS, and (b) account maintenance practices and procedures have been fully implemented across CS platforms.

Resource owners have identified
authorized users and their authorized
access rights.

The CS Security Handbook details the           Inspected procedures that CS followed to       No relevant exceptions noted.
process for granting access to system          grant access to its systems.
resources.

System access is role-based, which depends     Inspected access rights associated with user   Refer to the design weakness noted above,
on tasks and functions.                        accounts to determine if they had been         item (a).
                                               established in accordance with a role-based
                                               access scheme that organizes system and
                                               network access rights into roles.

IAM maintains a list of all approved           Inquired of management to determine that       IAM at four out of six sites did not track
privileged users for operating systems,        sites have IAMs, and determined whether        privileged role assignments.
networks, databases, and web                   the IAMs track privileged role assignments.
administrators. This includes those
privileged users within or outside of CS.      Inspected policies and procedures for          No relevant exceptions noted.
                                               granting operating system access, including
                                               required approval by information owners.

Each user identification issued is evidenced   Inquired to determine whether a                Refer to the design weakness noted above,
by a DD Form 2875 (or its predecessor          comprehensive account management               item (b).
DISA Form 41) or a local form that has         process existed to:
incorporated all the requirements of the DD       • allow only authorized users to gain

                                                                   38
Control Techniques                          Test of Operating Effectiveness                Results of Tests of Operating
(Related Controls Placed in Operation)                                                     Effectiveness
Form 2875. DD Form 2875, System                    access to workstations, applications,
Access Authorization Request, requires             and networks; and
approval from the user’s supervisor, data      •   deactivate individual accounts
owner, and validation of user personnel            designated as deactivated,
security investigation based on access             suspended, or terminated.
requested.

                                            Inquired of management regarding the           No relevant exceptions noted.
                                            process to determine that access
                                            authorizations were in accordance with
                                            DoD personnel security policies and
                                            security criteria (i.e. background
                                            investigation requirements outlined in DoD
                                            Regulation 5200.2-R).

Periodic revalidation of system users is    Inquired whether information assurance         Four out of five sites had no processes for
conducted to identify accounts and user     managers were performing periodic              conducting periodic revalidations of system
accesses that are no longer needed.         revalidations of system users.                 users.
Emergency and temporary access
authorization is controlled.

Emergency and temporary access              Inquired whether CS had established            One out of six sites did not have policies
authorizations are:                         policies and procedures for the creation and   and procedures in place for the creation and
                                            maintenance of emergency and temporary         maintenance of emergency IDs.
   •   documented and maintained on file,   access to CS owned or administered
   •   approved by appropriate              systems.
       management,
   •   securely communicated to the IAM,    Inspected a listing of emergency and           Two out of six sites did not maintain a
       and                                  temporary user access requests to determine    record of emergency and temporary user
   •   terminated after a predetermined     whether:                                       access requests.
       period.                                  • a record of such access was
                                                   maintained,
                                                • management approved the access,


                                                               39
Control Techniques                             Test of Operating Effectiveness                  Results of Tests of Operating
(Related Controls Placed in Operation)                                                          Effectiveness
                                                       and
                                                   •   access was terminated in a specific
                                                       period of time.


Owners determine disposition and
sharing of data.

The Support Agreement portion of the           Determine whether Service Level                  No relevant exceptions noted.
Service Level Agreements defines the data      Agreements addressed file sharing and IA
disposition and data sharing process.          roles and responsibilities for the acquisition
                                               or outsourcing of IT services.
Control Objective:
AC-3: Controls provide reasonable assurance that physical and logical controls to prevent or detect unauthorized access are
fully established and access to and use of system software is monitored.

Design Weakness:
CS does not completely have DoD required logical control procedures in place to fully ensure passwords, tokens, or other devices are
used to identify and authenticate users; access paths are identified and access authorizations are appropriately limited; policies and
techniques have been implemented for using and monitoring the use of system utilities, as well as for investigating and resolving
inappropriate or unusual activity; telecommunications are secured; and cryptographic tools are used in a secure fashion. Specifically,
control procedures are needed to ensure the following: (a) all relevant password policies and procedures are fully implemented at CS
sites; (b) password settings are fully in compliance with the CS policies; (c) vendor supplied passwords are always removed or controlled
once software has been installed; (d) SAs’ access is consistent with the controls required by DoD over IA; (e) permissions to access
devices, directories, files and registry settings have been fully established to comply with the STIGs; (f) operating system parameters are
configured to maintain integrity of the security software and application controls; (g) system software monitoring utilities are installed;
(h) system software information is logged and reviewed; (i) policies and procedures have been fully established to control and monitor
internal and remote access; (j) configuration and security settings are fully in compliance with STIGs for network devices; (k) warning
banners are displayed across all platforms hosted by CS; (l) policies and procedures are fully implemented for the use of cryptographic
tools; and (m) devices are subject to an approved communications encryption method to perform remote management and file transfers.




                                                                   40
Control Techniques                              Test of Operating Effectiveness               Results of Tests of Operating
(Related Controls Placed in Operation)                                                        Effectiveness
Physical safeguards have been
established that are commensurate with
the risks of physical damage or access.

Physical safeguard procedures include:          Inquired of guards at the check-in stations   No relevant exceptions noted.
   • controlled access and controlled           to understand the process for granting
       perimeters for CS facilities located     physical access.
       on military or GSA installations;
   • verification of DoD identification,
       such as a Common Access Card or
       DISA badge, by the guards for
       everyone entering the site;
   • enclosed perimeter, by a fence that
       controls vehicle and pedestrian
       access, for CS facilities not located
       on military or GSA installation;
   • routine patrol and random door
       checks performed by the local
       military, DoD, or GSA guards; and
   • controlled access to the
       administrative areas by a guard,
       mechanical cipher, or automated
       access control system.

Computer facilities have at least two levels    Inspected the site and the computer room to   One out of sixteen sites did not fully
of physical security controls for               determine the physical security controls      implement physical security controls over
safeguarding. Access to the computer            over physical layout of the data center and   the computer facility.
facility requires something that the            computer room.
employee has (i.e. picture identification
card) and something that the employee
knows (i.e. access code). Employees must
wear their picture identification cards above
the waist.


                                                                    41
Control Techniques                              Test of Operating Effectiveness                 Results of Tests of Operating
(Related Controls Placed in Operation)                                                          Effectiveness
The computer facility has:                      Inspected access restrictions to the            Eight out of sixteen sites did not fully
   • true floor-to-ceiling walls,               computer room to determine the existence        implement access restrictions to the
   • solid entrance doors,                      of:                                             computer room.
   • doors with hinges that prevent easy            • true floor-to-ceiling walls,
       removal,                                     • solid entrance doors,
   • emergency doors free of devices on             • doors with hinges that prevent easy
       the outside and equipped with a                 removal,
       panic bar release on the inside and a        • emergency doors that were free of
       ½ inch deadbolt throw, and                      devices on the outside and equipped
   • doors with balanced magnetic                      with a panic bar release on the
       switches.                                       inside and a ½ inch deadbolt throw,
                                                    • doors with balanced magnetic
                                                       switches, and
                                                    • a process to control keys.

All CS site SMs must maintain and post an       Inspected a list of individuals having access   Thirteen out of sixteen sites did not restrict
authorized access list inside of the            to the sensitive areas to determine their       access to sensitive areas to unauthorized
computing facilities. Changes to the            authorizations.                                 individuals. However, access to CS
authorized access list can be made in pen                                                       facilities located on military or GSA
and initialed by the SMs. The authorized                                                        installations was controlled by local
access list must be updated on an annual                                                        military, DoD, or GSA police who
basis.                                                                                          performed routine patrols and random door
                                                                                                checks.
Visitors are controlled.

All visitors have a visit authorization         Inspected procedures for handling visitors      No relevant exceptions noted.
request on file with the site SM.               to determine whether they:
                                                    • were required to be escorted, and
                                                    • had been cleared by the sponsor and
                                                        security.

Visitors to the computing facilities that are   Inquired to determine if there were             Eleven out of sixteen sites did not fully
not on the authorized access list must be       procedures in place to control visitor access   implement procedures to control visitor
signed in and out of the facility.              to the computer room.                           access to the computer room. However, all
                                                                                                visitors who are not on the authorized

                                                                    42
Control Techniques                             Test of Operating Effectiveness            Results of Tests of Operating
(Related Controls Placed in Operation)                                                    Effectiveness
CS personnel who do not have the                                                          access list are signed in and out of the
appropriate security investigation or                                                     facility by guards who check identification.
clearance and all non-CS personnel will be
escorted at all times while in the computing
facility.

Entry codes are periodically changed.          Inspected policies for changing access     Eleven out of fourteen sites did not fully
                                               codes (cipher locks) and obtained          implement procedures for changing access
                                               supporting documentation for these         codes.
                                               changes.
Passwords, tokens, or other devices are
used to identify and authenticate users.

Password configuration requirements:           Inspected CS password policies to          Refer to the design weakness noted above,
   • Minimum of 8 characters,                  determine whether these policies and       item (a).
   • One lower-case character,                 procedures met Federal, DoD, and DISA
   • One upper-case character,                 requirements.
   • One number, and
   • One special character.                    Inspected password settings to determine   Refer to the design weakness noted above,
Additionally,                                  compliance with the policies.              item (b).
   • Passwords changed every 90 days.
   • Password can only be changed once
       within 24 hours.
   • Password cannot be reused for
       10 cycles.
   • Password cannot reuse any
       character more than once.
   • Passwords are encrypted in storage.

Vendor-supplied default logons and             Inspected whether CS determines that all   Refer to the design weakness noted above,
passwords are disabled.                        vendor supplied passwords were removed     item (c).
                                               or controlled once the software has been
                                               installed.


                                                                  43
Control Techniques                             Test of Operating Effectiveness               Results of Tests of Operating
(Related Controls Placed in Operation)                                                       Effectiveness
Passwords are subjected to software attacks    Inquired whether passwords were checked       No relevant exceptions noted.
as part of Internet Security Scanner scan      as part of the SRR process.
and SRRs. Passwords are checked as part
of the SRRs and self-assessments. Servers      Inspected whether passwords scanning          For 16 of 49 Unix devices, the weekly
managed by the SMCs are being checked          tools were being executed on a weekly         password scan was disabled.
on a weekly basis with the automated           basis.
scripts.
Access paths are identified and access
authorizations appropriately limited.

Access paths are identified within the         Inspected the topography diagram to          No relevant exceptions noted.
communications topography for each CS          determine whether an analysis of the logical
site. The communication topography             access paths was performed whenever
shows connections from the wide area           changes were made to CS owned or
network into the perimeter point of            administered systems.
presence down to the individual Internet
Protocol addresses of all devices within the   Inspected to determine SAs’:                  Refer to the design weakness noted above,
enclave.                                       • access granted met DoD IA controls;         item (d).
                                               • access was consistent with their job
System software is configured in                   responsibilities;
accordance with the STIGs.                     • accounts designated as inactive,
                                                   suspended, or terminated had been
Access to data files, software programs and        promptly deactivated;
databases is controlled by the configuration   • access was reviewed frequently;
setting as described in the STIGs.             • access was supported by a completed
                                                   System Access Authorization Request
Network diagrams are developed and                 on file; and
maintained to show potential access paths.     • access was granted based on
                                                   least-privilege access at the operating
The operating system and communications            system level.
software are configured to prevent
circumvention of security software controls    Also, inspected access to platforms by
and unauthorized access from all paths.        attempting to gain access to the operating
                                               system and other system components.


                                                                   44
Control Techniques                              Test of Operating Effectiveness                Results of Tests of Operating
(Related Controls Placed in Operation)                                                         Effectiveness
                                                Inspected configuration settings to            Refer to the design weakness noted above,
                                                determine whether access to the data files     item (e).
                                                and software programs was in compliance
                                                with the STIGs.

                                                Inspected the operating system parameters      Refer to the design weakness noted above,
                                                to determine whether configurations:           item (f).
                                                    • maintain the integrity of the security
                                                        software and application controls;
                                                        and
                                                    • allow access via approved paths to
                                                        the operating system, kernel, system
                                                        security software, and when
                                                        applicable, application software.
Policies and techniques have been
implemented for using and monitoring
use of system utilities and inappropriate
or unusual activity is investigated and
appropriate actions taken.

Procedures are in place for monitoring,         Inspected policies and procedures              No relevant exceptions noted.
investigating and reporting inappropriate or    pertaining to monitoring, investigating, and
unusual activity. The STIG outlines what        reporting inappropriate and unusual
activity is to be monitored and, within these   activities on the use of system software
guidelines, local policy determines the         utilities.
thresholds for what is considered
inappropriate or unusual activities.

System utilities are installed in accordance    Inspected whether system utilities, intended   Refer to the design weakness noted above,
with policies and procedures for proper use     for monitoring inappropriate or unusual        item (g).
of system utilities. These are documented       activity, were installed.
in the STIGs, vendor documentation, and
applicable users’ manuals. Each site is


                                                                    45
Control Techniques                             Test of Operating Effectiveness               Results of Tests of Operating
(Related Controls Placed in Operation)                                                       Effectiveness
responsible for implementing these
guidelines.

The use of sensitive system utilities is       Inspected the type of information being       Refer to the design weakness noted above,
logged and inappropriate or unusual            logged, the frequency of review and           item (h).
activity is investigated.                      backup, and the sufficiency of data
                                               collected to detect operational or security
                                               abnormalities.
Telecommunications are secured.

Telecommunications access is controlled        Inspected policies and procedures that had    Refer to the design weakness noted above,
by the managing CCC for the network            been established to control and monitor       item (i).
devices, to include firewall and network       internal and remote access.
IDSs, at all sites within continental United
States for unclassified wide area network.
For each site that had not yet                 Inspected settings for network devices to     Refer to the design weakness noted above,
“transformed,” the sites are responsible for   determine compliance with the STIGs.          item (j).
the network devices. For those networks
that have been transformed, only CCC           Inspected the warning banner when             Refer to the design weakness noted above,
personnel have access to those networks        individuals log on to their computers and     item (k).
through the out-of-band virtual private        access the local area network or wide area
network tunnel.                                network to determine whether all users
                                               were warned that they were entering a
                                               government information system, and were
                                               provided with appropriate privacy and
                                               security notices.


Dial-in telephone numbers are not              Inquired if remote access numbers were        No relevant exceptions noted.
published and are periodically changed.        changed periodically and not published in
                                               CS phone lists.




                                                                   46
Control Techniques                            Test of Operating Effectiveness               Results of Tests of Operating
(Related Controls Placed in Operation)                                                      Effectiveness
Cryptographic tools are used in a secure
fashion.

When required by the customer, the Federal    Inspected policies and procedures outlining   Refer to the design weakness noted above,
Information Publication Standards 140-2       the use of cryptographic tools to encrypt     item (l).
compliant encryption is used for encryption   stored sensitive information.
of unclassified information.

Encryption tools such as Virtual Private      Inspected devices to determine whether        Refer to the design weakness noted above,
Network, Secure Socket Layer, Secure          approved cryptography was used to encrypt     item (m).
Shell, and Public Key Infrastructure are      stored sensitive information and inspected
used where the data or the transmission of    whether information in transit through a
data needs to be protected.                   network was using approved cryptography
                                              when required.
Sanitation of equipment and media prior
to disposal or reuse.

Sanitation of equipment and media prior to    Inspected CS policies and procedures, and     Two out of six sites did not fully comply
disposal or reuse are performed in            related documentation supporting the          with policies and procedures for sanitation
accordance with DoD Regulation 5200.1-R,      sanitation of equipment and media.            of equipment.
CS Security Handbook, and the Assistant
Secretary of Defense (Command, Control,
Communications, and Intelligence)
Memorandum, "Disposition of Unclassified
DoD Computer Hard Drives," dated June 4,
2001.




                                                                 47
Control Techniques                               Test of Operating Effectiveness              Results of Tests of Operating
(Related Controls Placed in Operation)                                                        Effectiveness
Control Objective:
AC-4: Controls provide reasonable assurance that access is monitored, apparent security violations are investigated, and
appropriate remedial action is taken.

Design Weakness:
CS does not have control procedures in place to fully ensure audit trails are maintained and actual or attempted unauthorized, unusual, or
sensitive access is monitored. Specifically, control procedures are needed to ensure the following: (a) audit trails are monitored across
all CS sites, and (b) devices have host-based intrusion detection systems fully deployed or implemented across CS sites.

Audit trails are maintained.

STIGs define audit trail requirements.           Inspected the audit trail monitoring,        Refer to the design weakness noted above,
                                                 analysis, and reporting processes to         item (a).
For mainframe computers, three access            determine that an automated audit trail
programs (Resource Access Control                capability is in place.
Facility, Access Control Facility 2, and Top
Secret) have the ability to conduct full audit
and record audit records. The access
program for Unisys mainframe also can
conduct and record full audit records.
For mid-tier systems, databases and
web-based applications, audit capability is
implemented if it does not impact
performance and system storage devices
overloads.

Audit records are maintained for 1 year.         Inquired of IAMs to determine whether        Three of four sites did not have procedures
                                                 they retained backups of audit records for   to retain backups of audit records for one
                                                 one year.                                    year.




                                                                     48
Control Techniques                            Test of Operating Effectiveness              Results of Tests of Operating
(Related Controls Placed in Operation)                                                     Effectiveness
Actual or attempted unauthorized,
unusual, or sensitive access is monitored.

Suspicious access activity is investigated    Inspected reports generated to track         Three out of six sites did not fully comply
and appropriate action taken. The security    security violations on CS owned or           with policies and procedures for handling
staffs located in the SMCs, ISCs and CCCs     administered systems to determine how        security violations on CS owned or
monitor their respective reports and audit    questionable violations were documented      administered systems.
logs for unauthorized access or activities.   and handled.
Suspected incidents are investigated in
concert with trusted agents from the          Inspected network and host-based intrusion   Refer to the design weakness noted above,
customer base or data owners to determine     detection systems to determine they were     item (b).
the legitimacy of the incidents. If the       deployed where required.
suspected incident cannot be validated as
authorized, they are reported to the
Computing Services Cell within the DISA
Network Operation Center and to the
Global Network Security Center.




                                                                 49
Software Development and Change Control
Control Techniques                            Test of Operating Effectiveness               Results of Tests of Operating
(Related Controls Placed in Operation)                                                      Effectiveness
Control Objective:
CC-1: Controls provide reasonable assurance that processing features and program modifications are properly authorized.

Authorizations for software modifications
are documented and maintained.

Configuration Control Board has been          Inquired of management the configuration      One of out six sites did not fully
established to manage the configuration       management process to determine whether       implement configuration management
management process. The Configuration         the configuration management process          procedures.
Control Board has the authority to approve    addresses:
or disapprove proposed changes to hardware,   • documentation of configuration
operating system, utility software,               management roles and responsibilities,
communications, and networks brought          • the establishment of a Configuration
about by proposed application software            Control Board,
changes.                                      • a testing process to verify changes
                                                  prior to implementation, and
                                              • a verification process to provide
                                                  assurance that the configuration
                                                  management process was working
                                                  effectively.

                                              Inspected changes to applications or          Six out of six sites did not always
                                              system software (updates or modifications)    document configuration change requests,
                                              made for which CS had change control-         including authorizations.
                                              related responsibilities to determine
                                              whether the changes were properly
                                              authorized and documented.
Use of public domain and personal
software is restricted.

CS management has implemented policy that     Inquired of management regarding the          One out of five sites did not fully
prohibits the usage of personal software on   policies and procedures restricting the use   implement policies and procedures
                                                                50
Control Techniques                               Test of Operating Effectiveness                 Results of Tests of Operating
(Related Controls Placed in Operation)                                                           Effectiveness
the public domain.                               of personal and public domain software          restricting the use of personal and public
                                                 and instant messaging.                          domain software and instant messaging.

Users of CS resources use only software that     Inspected CS procedures for enforcing           Users at four out of five sites did not
is properly approved and accredited for CS       policies that prohibit personal use of binary   always use software that was properly
use.                                             or machine executable public domain             approved or accredited.
                                                 software, shareware, and freeware by
                                                 inspecting computers or workstations to
                                                 determine compliance.
Control Objective:
CC-2: Controls provide reasonable assurance that all new and revised software including system software are tested and
controlled.

Changes are controlled as software
progresses through testing to final
implementation.

Procedures are in place for the testing, test    Inspected policies and procedures for the       No relevant exceptions noted.
analysis, test reporting, and approval for       installation, upgrade, and maintenance of
release to operational sites for all system      system software.
software changes.

For system software:                             Inquired procedures for modifications to        No relevant exceptions noted.
    • full integration testing is performed      enterprise applications (or other
        to ensure functionality;                 applications for which CS had change
    • performance and stress testing is          control-related responsibilities), including
        performed, as required, to identify      patches, upgrades and new applications.
        impacts on system performance; and
    • security testing is performed for each     Inquired of management regarding whether        Two out of six sites did not fully
        system software release. Based upon      controls were adequate to prevent the           implement controls to prevent the
        test results, actions are initiated to   implementation of unauthorized system           implementation of unauthorized system
        rectify identified software              software or changes to system software.         software or changes to system software.



                                                                    51
Control Techniques                          Test of Operating Effectiveness               Results of Tests of Operating
(Related Controls Placed in Operation)                                                    Effectiveness
       deficiencies, performance impacts,
       and security problems.
                                            Inspected the test plan standards that have One out of six sites did not fully develop
                                            been developed for all levels of testing to test plan standards for all levels of testing.
                                            include:
                                                • definition of responsibilities for
                                                   each party, including (users, system
                                                   analysts, programmers, and quality
                                                   control);
                                                • encompassing procedures for
                                                   assessing IA and impact on
                                                   accreditation; and
                                                • requirement for approval before
                                                   proceeding to the next level of
                                                   testing.

                                            Inspected if CS had separate environments     No relevant exceptions noted.
                                            for development, testing, and production.

                                            Inquired of management regarding who          No relevant exceptions noted.
                                            was responsible for moving changes
                                            between development, testing, and
                                            production environments.

                                            Inquired of management regarding how          No relevant exceptions noted.
                                            access is controlled between these
                                            environments (development, test, and
                                            production) for non-end users and
                                            inspected for compliance.

                                            Inspected the listing to determine whether    CS programmers at one out of six sites had
                                            CS programmers have access to the             unauthorized access to the production
                                            production environment, and whether end       environment.
                                            users have access to the development and
                                            test environments.

                                                              52
Control Techniques                             Test of Operating Effectiveness               Results of Tests of Operating
(Related Controls Placed in Operation)                                                       Effectiveness
                                               Inspected whether CS maintains an audit       Three out of six sites did not fully maintain
                                               trail or log of identified system software    audit trails or logs for system software
                                               changes and issues to determine that the      changes.
                                               log included:
                                                    • date, time, and type of event;
                                                    • user identification; and
                                                    • problem description, assigned
                                                         reviewer, and problem resolution.
Emergency changes are promptly tested
and approved.
Emergency change procedures are                Inquired of management regarding the          No relevant exceptions noted.
documented.                                    policies and procedures in place for
                                               emergency changes.

Emergency changes are moved into               Inspected the following for emergency         No relevant exceptions noted.
production only after changes are tested and   changes:
documented prior to final approval by the      • emergency changes were recorded and
Configuration Control Board.                       approved by management;
                                               • normal change request forms and
                                                   documentation were completed after
                                                   the emergency change; and
                                               • independent review of changes was
                                                   performed.
Control Objective:
CC-3: Controls provide reasonable assurance that software libraries are controlled.

Access to program libraries is restricted.

Source code is maintained in separate          Inquired of management to determine that      No relevant exceptions noted.
libraries.                                     source code for the most recent version
                                               was maintained in a separate library from


                                                                  53
Control Techniques                        Test of Operating Effectiveness               Results of Tests of Operating
(Related Controls Placed in Operation)                                                  Effectiveness
                                          production code.

                                          Inspected the access control software rules   No relevant exceptions noted.
                                          to determine they were clearly defined.
Movement of programs and data among
libraries is controlled.

Verification and acceptance of software   Inspected policies and procedures for         Two out of four sites had incomplete
changes is documented and approved and    movement of program code between              procedures for movement of program code
movements are controlled.                 libraries.                                    between libraries.

                                          Inspected documentation maintained to         Three out of five sites had incomplete
                                          track the movements or changes to             documentation to support approvals for the
                                          determine they were approved.                 movement of program and data among
                                                                                        libraries.




                                                             54
Segregation of Duties
Control Techniques                              Test of Operating Effectiveness               Results of Tests of Operating
(Related Controls Placed in Operation)                                                        Effectiveness
Control Objective:
SD-1: Controls provide reasonable assurance that incompatible duties are segregated and related policies are established.

Incompatible duties have been identified
and policies implemented to segregate
these duties.

CS Security Handbook describes the job          Inspected policies and procedures             Two out of six sites did not have policies
responsibilities that are supplemented by       concerning employee responsibilities and      and procedures addressing employee
local site policies. The job responsibilities   segregation of duties, to address:            responsibilities and segregation of duties.
are based on roles and responsibilities for         • consistency with the current
department personnel. Service Level                    operating environment;
Agreements also describe the roles and              • identification of sensitive functions
responsibilities of CS personnel                       and incompatible duties; and
responsible for maintaining the customer            • understanding of management and
platforms.                                             information systems personnel’s
                                                       responsibilities about segregation
                                                       of duties.

                                                Inspected the site’s organization chart       One out of six sites did not have roles
                                                depicting information security functions      assigned based on appropriate segregation
                                                and assigned personnel to determine if        of duties.
                                                individuals were assigned incompatible
                                                roles.

                                                Reviewed site organization charts depicting Two out of six sites did not have distinct
                                                information security functions and assigned system support responsibilities that were
                                                personnel to determine whether              performed by different personnel.
                                                    • the chart reflected the current



                                                                     55
Control Techniques                       Test of Operating Effectiveness                 Results of Tests of Operating
(Related Controls Placed in Operation)                                                   Effectiveness
                                                organizational structure;
                                            •   each function was staffed by a
                                                different individual; and
                                            •   alternate or backup assignments
                                                had been made, if applicable,.

                                         Inquired of selected individuals to             No relevant exceptions noted.
                                         determine if they performed only their
                                         primary job functions and if secondary
                                         duties were performed, whether these
                                         duties created a segregation of duties issue.

                                         Inspected the activities of selected            Personnel at one out of six sites did not
                                         individuals to determine the nature and         comply with applicable segregation of
                                         extent of compliance with applicable            duties policies.
                                         segregation of duties policies.

                                         Inspected to determine whether sites with       One out of six sites did not implement
                                         limited resources to segregate duties had       appropriate controls over segregation of
                                         implemented compensating controls.              duties.
Job descriptions have been documented.

All civilian personnel have position     Inspected a sample of position descriptions     One out of six sites did not have fully
descriptions.                            in different organizational units to            documented position descriptions for all
                                         determine whether:                              civilian personnel.
                                             • duties were clearly described,
                                             • position descriptions were current,
                                             • job descriptions reflected current
                                                 responsibilities and duties, and
                                             • technical knowledge, skills, and
                                                 abilities required for successful
                                                 performance were included for
                                                 technical positions.



                                                               56
Control Techniques                             Test of Operating Effectiveness                 Results of Tests of Operating
(Related Controls Placed in Operation)                                                         Effectiveness
Employees understand their duties and
responsibilities.

Supervisors maintain copies of position        Inquired of personnel whether their             No relevant exceptions noted.
descriptions, and ensure that they correctly   position descriptions match their
identify the task and functions required by    understanding of their duties and
the position.                                  responsibilities and whether additional
                                               duties were undertaken that were not listed
                                               in their position descriptions or
                                               performance plan.
Supervisors at all levels develop and          Inquired of management personnel in key         No relevant exceptions noted
maintain a performance plan for each           operating and programming positions to
individual and ensure that the plan requires   determine if responsibilities for restricting
the performance based on the position          access by position descriptions were
description.                                   clearly defined, understood, and followed.
Control Objective:
SD-2: Controls provide reasonable assurance that access controls to enforce segregation of duties are established.

Management reviews effectiveness of
control techniques.

Self-inspections of traditional security are   Inquired of management on whether               Two out of six sites did not have
conducted annually by SM.                      reviews were performed to assess the            comprehensive procedures that required
                                               adequacy of segregated duties.                  performance reviews to assess the
Self-assessments of systems access are                                                         adequacy of segregated duties.
conducted periodically at direction of IAM.




                                                                      57
Control Techniques                          Test of Operating Effectiveness               Results of Tests of Operating
(Related Controls Placed in Operation)                                                    Effectiveness
Control Objective:
SD-3: Controls provide reasonable assurance that personnel activities are controlled through formal operating procedures and
supervision and review.

Formal procedures guide personnel in
performing their duties.

Local and enterprise standard operating     Inquired of supervisors and operations        No relevant exceptions noted.
procedures identify tasks and functions     personnel to determine if standard
required to enable personnel to perform     operating procedures existed.
their duties.
                                            Inspected standard operating procedures       Three out of six sites did not have local
                                            that guide personnel in performing their      standard operating procedures to guide
                                            duties and determined whether they:           personnel in performing their duties;
                                                • outline the proper steps for            however, personnel were supervised and
                                                    performing key functions, and         enterprise policies and procedures were in
                                                • reflect the current operating           place.
                                                    environment.
Active supervision and review are
provided for all personnel.

Operational activities are monitored by     Inquired of supervisors and personnel to      No relevant exceptions noted.
supervisors in accordance with procedures   determine the process for monitoring
stated in the CS Security Handbook.         operational activities.

                                            Inquired of site management to determine      No relevant exceptions noted.
                                            whether operations were being monitored
                                            by supervisors as stated in the CS Security
                                            Handbook.




                                                                 58
Service Continuity

Control Techniques                              Test of Operating Effectiveness              Results of Tests of Operating
(Related Controls Placed in Operation)                                                       Effectiveness
Control Objective:
SC-2: Controls provide reasonable assurance that data and program backup procedures and environmental controls have
been implemented.

Data and program backup procedures
and environmental controls have been
implemented.

Full-volume weekly backups are covered          Inspected policies and procedures for        Six out of sixteen sites did not have formal
as basic services.                              backing up data files for applications and   documented tape backup procedures that
                                                networks.                                    were consistently followed.
All backup data files are stored off-site.
There are normally three different backup       Inspected to determine whether procedures    No relevant exceptions noted.
cycles (grandfather, father, son) held at the   were in place to assure the physical and
off-site location. The backup sites are         logical protection of the backup hardware.
required to be, at a minimum, 25 miles
from the supported computing site.              Inspected to determine whether sites had     Two out of sixteen sites did not have
                                                procedures that identified an off-site       procedures that identified an off-site
Each site has implemented its own off-site      location for storage of backup tapes.        location for storage of backup tapes.
and transportation agreements. Most sites
use some type of locked containers, and         Inspected to determine how often the site:   Thirteen out of sixteen sites did not have
inventory system of containers are either           • created backups,                       procedures to recover corrupted data files,
provided by the contracting service or              • rotated backups off-site,              lost programs, and operating systems by
locally purchased.                                  • tested the backups for completeness    periodically testing backup tapes.
                                                       of data,
                                                    • tested the backups for potential
                                                       usability, and
                                                    • retained the backup media.


                                                                      59
Control Techniques                            Test of Operating Effectiveness                  Results of Tests of Operating
(Related Controls Placed in Operation)                                                         Effectiveness

                                              Inspected a listing of personnel authorized      Three out of sixteen sites did not fully
                                              to access off-site facilities to determine if    implement procedures to restrict access to
                                              access was appropriate based on job              off-site facilities.
                                              function.

                                              Inspected a listing of tape backups stored       Ten out of sixteen sites did not fully
                                              off-site to determine that:                      implement procedures to recover backup
                                                  • tape backups existed,                      tapes stored offsite.
                                                  • files could be used to recreate
                                                       current reports, and
                                                  • tape backups were transported to
                                                       the off-site facility and back to
                                                       original location.

                                              Inspected to determine whether the off-site      Ten out of sixteen sites did not fully
                                              location:                                        implement procedures to control access to
                                                  • was geographically removed from            these sites or facilitate recovery of
                                                      the primary site,                        operations.
                                                  • had adequate physical and access
                                                      controls,
                                                  • had boundary defense equivalent to
                                                      the perimeter security at the
                                                      primary site, and
                                                  • had appropriate space for storage
                                                      media and recovery documentation.

Environmental Controls comprise the           Inspected data center and off-site facility to   Nine out of sixteen sites did not fully
following controls.                           determine whether the following                  implement environmental controls.
                                              environmental controls were in place:
   •   Computing facilities and support           • fire suppression and prevention
       areas have automatic notification of          mechanisms that automatically
       activation of smoke detectors that            activate when they detect heat,
       alarm locally and at supporting fire          smoke, or particles;
       department.                                • smoke detectors;
   •   Some administration areas have             • fire extinguishers and sprinklers;
                                                                     60
Control Techniques                            Test of Operating Effectiveness              Results of Tests of Operating
(Related Controls Placed in Operation)                                                     Effectiveness
       automatic notification of activation      •   water detectors;
       of smoke detectors. Some of these         •   air conditioning systems;
       only alarms locally; some alarm           •   humidity control systems;
       locally and at the supporting fire        •   uninterrupted power supply;
       department.                               •   backup generators;
   • Fire inspections are made based on          •   emergency lighting;
       local site rules.                         •   automated voltage control; and
   • Computing facilities and support            •   redundant systems.
       areas have automatic activation of
       fire suppression systems.              Inspected to determine whether the data      No relevant exceptions.
   • Administration areas have either         and network center staff were aware of the
       automatic activation of fire           locations of:
       suppression systems or hand-held           • fire alarms,
       extinguishers located throughout           • fire extinguishers, and
       the area.                                  • master power switches and
                                                      emergency cut-off switches.
All computer facilities have:
    • automatic humidity and
       temperature controls systems that
       alarm when established humidity
       and temperature conditions are
       exceeded;
    • a master power switch located at or
       near the main entrance, which is
       labeled and protected by a cover to
       prevent accidental shut-off;
    • automatic voltage control systems
       that alarm if the voltage fluctuates
       beyond established safe operations
       levels;
    • a minimum of two electrical feeds;
    • battery powered uninterrupted
       power system to provide sufficient


                                                                   61
Control Techniques                           Test of Operating Effectiveness   Results of Tests of Operating
(Related Controls Placed in Operation)                                         Effectiveness
       power to all systems in the
       computer room to allow for at least
       20 minutes of operations; and
   • backup generators that are set to
       automatically start-up and generate
       power when commercial power
       fails. The generators are tested
       monthly for operations and power
       generations. Additional fuel and
       spare parts are on hand to provide
       for sustained operations.




                                                                 62
Section IV: Supplemental Information Provided by DISA




                         63
                                    Introduction
This Statement on Auditing Standards No. 70 (SAS 70) audit resulted in the
identification of potential vulnerabilities and process improvement within the areas of
Information Security. The audit of DISA CS and associated FSO support, was designed,
conducted, and reported, in accordance with standards of the American Institute of
Certified Public Accountants and generally accepted government auditing standards. CS
focuses its information system security around and in accordance with DoD Information
Technology Security Certification and Accreditation (DoD Instruction 5200.40) and
other directives.

Connecting a computer to a network inherently introduces security risk to both the
computer and the network. The DITSCAP clearly places the responsibility of balancing
IT system availability, interoperability, and security on the DAA. The DAA is
responsible for the agency’s systems certification and accreditations and the operating
sites’ authority to operate. The DISA DAA and FSO have provided CS with objective
and measurable system security requirements that balance levels of risk with military
operational need for availability and interoperability. Those criteria are delineated
strategically and operationally via security instructions and guides, and tactically via
measurable systems configuration criteria. FISCAM was the basis for the SAS 70
objectives and techniques. FISCAM is a standard methodology used in the Federal
government. Accordingly, management clarified the techniques throughout the
engagement to reflect the CS control environment. Throughout this engagement, CS
management continued to clarify DoD techniques that deviated from the FISCAM
methodology.

The results of the SAS 70 audit do provide some actionable and valuable strategic focus
that will aid CS in solidifying security processes and in guiding overall migration toward
a centrally managed enterprise following its recent Transformation (described below).
Based upon lessons learned from this initial SAS 70 audit process, it is expected that
future audits will enable an assessment of security posture that will result in less
reportable vulnerabilities.


                   DISA’s Computing Transformation
The Combat Support Computing mission is to provide secure, interoperable, and assured
data processing that enables the DoD to deploy, employ, and sustain a warfighting force.
Just as the private sector maximizes advances in technology to improve service delivery
and harvest savings, CS continues to take advantage of transformational technologies in
order to improve enterprise IT infrastructure and provide the warfighter with “best value”
computing support. Transformation strategies and objectives for CS include the
following:

   •   refine processing, support, and services architecture while taking advantage of
       increased bandwidth and highly distributed computing and storage capability;

   •   provide standardized, content-rich computing environments;

   •   increase system availability by expanding data replication and mirroring;



                                            65
   •   increase use of centralized automated systems management;

   •   continue workload consolidation where economies of scale can be achieved;

   •   facilitate transfer of additional processing support for command and control and
       intelligence functions into DISA facilities; and

   •   continue ongoing efforts to support cross-component server applications and
       facilitate DoD-wide consolidation as the designated provider for all DoD server
       processing.

Over the past 30 months and throughout the course of the SAS 70 audit, CS was engaged
in executing a large-scale consolidation plan that included numerous workload
migrations, introduction of new technologies, a comprehensive business and operational
management restructuring, and a reduction-in-force that impacted over 1,000 government
positions. This highly successful transformation is nearing completion and has included
operational and technical transitions encompassing 28 mainframe logical partitions, over
800 customer applications, and over 850 geographically disparate network devices. A
review of this report, or any evaluation of security processes, procedures, and
management controls for CS (or their FSO support), must necessarily consider the impact
of these transformational changes and the day-to-day operational imperatives that
remained in effect during the period of this audit. Accordingly, the following is provided
as a summary of CS’s computing transformation.

Transformation Highlights

The 2003-2005 transformation of CS represented yet another major step forward in
providing cost effective combat support computing to the warfighters. Most importantly,
the transformation will allow DoD to preserve military control over combat support
processing as an integral component of the GIG and the “best value” option. The
following summarizes the key elements of this transformation:

   1. Implementation of assured computing. CS has fully implemented IBM
      mainframe assured computing that includes a set of initiatives designed to
      enhance facilities, equipment, communications, and software to ensure that data is
      continuously available to the warfighters. This has transformed traditional
      disaster recovery and continuity of operations planning processes to yield
      previously unattainable levels of availability. Foremost among these initiatives
      are measures to use remote data replication and mirroring at geographically
      separate locations to protect against the catastrophic loss of a processing facility,
      and to mitigate the risks inherent in data center consolidations. CS had previously
      proven this capability in the Unisys mainframe environment.

   2. Consolidation of mainframe processing. CS operated six mainframe processing
      sites, five of which supported OS/390 and Z/OS (IBM-based) processing and
      three of which supported Unisys processing. Mainframe workload was
      consolidated into three IBM and two Unisys sites in conjunction with
      implementation of data mirroring and replication.

   3. Consolidation of server processing. CS supported UNIX and Windows NT-based
      server processing at 15 locations. From FY 2003 to FY 2005, management and
      administration of these servers were consolidated into four sites, grouped
      primarily according to the supported Service or Defense agency customer. Given


                                           66
       the scope and distribution of Defense Finance and Accounting Service systems, a
       significant portion of the server consolidation involved Defense Finance and

       Accounting Service applications. Some consolidations entailed physical
       relocation of assets, most; however, were logical migrations of the management
       functions.

   4. Consolidation of systems management. CS consolidated all systems management
      functions for mainframe and server computing into four locations with primary
      and backup support for each operating environment. A “lights-dim” approach,
      with touch labor support for remote operations, was implemented at operating
      sites. Systems management consolidation was implemented in concert with
      mainframe and server processing consolidation from FY 2003 to FY 2005.

   5. Management restructuring. To achieve further economies of scale in the
      management and administration of computing operations, CS centralized all
      business and operational support functions. Over the past 30 months, the former
      DECC and Detachment structures were eliminated. By the end of FY 2005, CS
      will consist of one Headquarters component, four production sites (or SMCs), two
      infrastructure services sites, and several “lights-dim” server processing sites, as
      described above. All business, financial, engineering, acquisition, logistics, and
      administrative functions currently performed in the field today are being
      integrated and consolidated into a single virtual management organization. The
      post-transformation site configuration is displayed in Figure 1.

                       Figure 1. DISA Computing Services Site Configuration



                     Puget Sound
                                                                                                                 Europe
                                                           Rock Island
                                Ogden
                                                                         Columbus                Mechanicsburg

                                        Denver                                                Chambe rsburg
                                                                              Dayton
                                                                                        NCR           Norfolk
                                                           St Louis
                    San Diego                Oklahoma
                                               City                                          Warner Robins
                                                                 Huntsville                      Warner Robins
        Hawaii                                                                         Pensacola
                                          San Antonio          Montgomery
                 Pacific                                                                       Jacksonville




                                        Headquarters                          Systems Management Centers
                                                                              (SMC) – mainframes and servers
                                        Processing Element
                                                                              OCONUS Defense Enterprise Computing
                                        Infrastructure Services Center        Center (DECC)




Technology Insertion and Technical Management Changes

In recent years, significant advances have been made in the areas of IT enterprise
architectures and management automation. Networks have been designed to separate


                                                          67
management functions from in-band production, thereby increasing security and enabling
remote administration of devices and applications. Toolsets have been developed that
provide administrators with increased capacity to manage customers’ systems, resulting
in far superior ratios in terms of environments managed per operator. During the
planning phase for the current transformation, CS performed extensive industry research
and incorporated these concepts into its transformation design. The following briefly
summarizes some of the capabilities implemented to support the FY 2003-2005
transformation that were still being fully established during the course of the subject
SAS 70 audit.

Central Communication Centers

CS established two CCCs to provide centralized network management for all 18 DECC
sites, thereby improving standardization and configuration management while achieving
significant economies of scale. The core CCC function is to maintain a secure, cost
effective, efficient, and reliable telecommunications operations environment supporting
DoD and the warfighters by providing the appropriate event correlation for network and
security environments within the data centers, and to serve as the SMC escalation
organization to the Defense Information System Network Regional Network Operations
Center, the Service, and Defense agency base level management centers. Utilizing a
secure “out-of-band” management network, the CCCs support all routing, switching,
Domain Name Servers, wide area network connectivity to DISA Network Services, and
network security device operations. The CCCs also employ a Security Management
Team that maintains the security functions on the production networks managed by the
CCCs, including access control and IDS, firewall operations, and configuration
management.

Out-of-Band (OOB) Network

The CS out-of-band management network was designed and implemented to support
secured remote administration of all CS “glass house” (i.e., inside the data center)
devices. The out-of-band infrastructure is designed to provide a secure method for
remote privileged user access and Enterprise System Management data transmission,
irrespective of whether SMC personnel are physically located in the same building. The
out-of-band architecture includes virtual private network connectivity and privileged user
access accounts based upon the specific functions required by the user. Separate
individual user access profiles are issued for Windows, UNIX, and mainframe
environments, and network access and authentication is validated for auditability.
Internet Protocol Security tunnels are established among all DECCs to the Enterprise
System Management suites located at the two CCC locations for encrypted system
management data. Tivoli and Hewlett Packard Openview collectors that reside within
the out-of-band collect site-specific management data that is then transferred to the
central complex in Oklahoma City and Montgomery.

Remote Systems Management

One of the key elements of the CS Transformation was to establish remote system
administration capabilities. Previously, all 16 data centers maintained operational control
independently, which resulted in use of multiple toolsets and procedures. To improve
standardization and reduce the ratio of system support personnel to the number of devices
managed, CS made remote systems management a priority and shifted the paradigm from
local ownership and control to that of a virtual enterprise environment. Enterprise
System Management software, such as Hewlett Packard Openview, Tivoli TEC (Tivoli
Enterprise Console), and Veritas Back-up, was integrated into a common architecture for

                                            68
use by all SMCs. In addition, with remote management as CS’s premise, a complete
review of systems administration from an enterprise perspective was performed and
resulted in more efficient and standard ratios for all mainframe, windows, and UNIX
environments. As discussed above, an out-of-band network infrastructure was designed
and implemented as the vehicle to provide secure access for remote system management
personnel.

Central Staging Center

To ensure proper configuration management within the transformed CS, the Operations
Division established a “Central Staging Center” to serve as a centralized receipt and
staging function for all server and communications hardware and software destined for
implementation at DECC locations. This capability represented a marked improvement
in configuration control by ensuring that all assets received are documented in a standard
fashion with the standard asset management tools, and staged in accordance with the
prescribed configuration process. Centralization ensures that all standard process
requirements and coordination associated with the incorporation of new assets into the
production operating environment are consistently met, and simplifies large-scale
implementations involving assets in multiple locations. Responsibilities include mid-tier
and communications configuration setup, and application of STIG implementation at the
operating system, database, network, and web levels. This CS component is staffed with
logistics and technical personnel to provide asset management and inventory support and
ensure that all configuration management databases are reconciled.


             Security Processes and Other Considerations
Management Restructuring and Transitions

As part of the Transformation plan to centralize all business and operational support
functions within CS, management of all security aspects (information, physical,
personnel, etc.) was foremost in terms of departing from the previous decentralized
management structure inherent in the 5 DECC and 13 Detachment configuration.
Centralized control, development, and review of all PEs’ SSAAs and authority to operate
documents were implemented site-by-site. Documents and processes were in the process
of migration from field to centralized management, including transfer of documents and
training of new personnel, throughout the period of the SAS 70 audit process.

Other functions and processes supporting field unit security were also in a state of
transition during the SAS 70 audit. For example, configuration management
responsibilities, initially planned for centralization, were largely redistributed to the field
units, and staff positions were re-instated pending the acquisition of an automated tool.
Technical challenges and delays in fully implementing Enterprise System Management
tools that support the centralized assessment of security status (such as the self-healing
SRRs and the 6.0 release of FSO’s VMS) have impacted plans to centralize, which has
required re-instatement of field-level security monitoring and processes beyond the
planned dates. The out-of-band for SIPRNet and NIPRNet, the installation of separate
administrative and production local area networks at all sites, and the migration of all
non-production workload to the production local area networks took place during the
SAS 70 audit. In addition, while this was taking place, the entire CS network
infrastructure was migrating toward a new, closed architecture.



                                              69
During this dynamic transition, CS continued to make significant improvements in its
security posture. Examples include the implementation of deny-by-default networks,
automated SRRs, closing of ports at the internet-NIPRNet gateways, implementation of
network security components, daily tracking of Information Assurance Vulnerability
Alert compliance, an auditable network change process, an auditable connection-
approval process, encryption of many file transfers and interactive sessions,
implementation of Microsoft patch servers, and etc.

Security Updates and Coordination

Installations of Information Assurance Vulnerability Alerts, software patches, and
customer application releases are major causes for scheduled outages. Since CS must
balance customer operational imperatives with Information Assurance Vulnerability
Alert and STIG compliance, customer coordination must be obtained early, followed by
rigorous adherence to established timeframes, so that vulnerabilities can be eliminated.
During the SAS 70 audit, situations requiring this customer coordination took place;
however, customer approval for the downtime required to implement security
improvements was not always attainable.

Improved Security Processes

During the SAS 70 audit, many of the findings at various sites were corrected on the spot
and improved processes were established. While insights gained from external
examiners were helpful, the final report covers the entire set of objectives for CS as a
whole and, accordingly, does not reflect all iterative corrections and enhancements made
at individual sites. The following are examples of some of the improvements:

   •   Several updates to the System Security Authorization Agreement were made
       during the audit. Additional security policies and procedures were incorporated
       into the System Security Authorization Agreement that conformed to the
       recommendations.

   •   The process for managing DD Form 2875s was modified to ensure they are filled
       out in a consistent manner and proper authorization for system access is
       maintained.

   •   The Security Awareness training program was strengthened at the Headquarters
       level to ensure that all employees are completing the training on an annual basis.

   •   Out-processing procedures were refined to ensure all employees (contractor and
       government) follow the same procedures when their employment terminates.

   •   Tiger Teams were established to develop or refine procedures in areas where the
       SAS 70 auditor recommended improvements.


                       Continuity of Operations Plan
CS has an up-to-date contingency plan developed and documented. The Business
Continuity Plan (BCP) is a contingency plan that, by regulatory requirements within and
external to CS, each CS processing site must develop, maintain, and exercise. CS must
keep the BCP up to date, and have the plans evaluated annually for completeness and


                                           70
accuracy. Based on exercise results, the plan is updated to address identified
discrepancies. The BCP is reviewed annually and tested periodically.

Each CS-managed application has a recovery strategy documented that identifies the
process for recovering that application in response to a disaster or contingency related
event. All BCP information, including information on alternate recovery sites and
telecommunications, is reviewed annually for accuracy and completeness. During
application recovery exercises, the capabilities of alternate sites and telecommunication
facilities are confirmed. Where shortfalls exist, they are documented and addressed
within the BCP and their capabilities are tested during subsequent exercises. As part of
that documentation and where appropriate, alternate processing sites and
telecommunication facilities are identified.

The BCP is reviewed annually for accuracy and completeness and subjected to a BCP
walk-through exercise, using the appropriate team members, as well as an audit of the
related off-site storage programs and facility. In addition, selected applications are
subjected to application recovery exercises involving a physical relocation of primary
production processing to a documented alternate location.

CS has established policies governing the timely development and distribution of
exercise after action reports, as well as requirements for addressing identified
discrepancies within the BCP. Action reports are due, in final form, within four weeks
after the completion of any application recovery exercise. They are distributed to the
appropriate customer personnel and are used as starting points for the updating and
refinement of the relevant sections of the BCP.


                                      Summary
From the DISA perspective, this initial SAS 70 audit proved to be a challenging
undertaking in terms of timing, process, and methodology. Performing an audit of this
magnitude and complexity is undoubtedly a difficult task even in the most stable of
operating environments. Attempting this in the middle of a full-scale transformation of
the CS enterprise required unprecedented effort on everyone’s part and, unfortunately,
complicated the task for all involved. Notwithstanding limitations in the results obtained
as discussed above, this audit has provided a foundation upon which to continue
improving processes and procedures essential to maintaining proper information security
in all areas.




                                            71
Acronyms and Abbreviations
BCP       Business Continuity Plan
CCC       Communications Control Center
CIO       Chief Information Officer
CS        Center for Computing Services
DAA       Designated Approving Authority
DECC      Defense Enterprise Computing Centers
DISA      Defense Information System Agency
DITSCAP   Defense Information Technology Certification and Accreditation Process
DoD       Department of Defense
FSO       Field Security Operations
GIG       Global Information Grid
GSA       General Services Administration
IA        Information Assurance
IAM       Information Assurance Manager
IAO       Information Assurance Officer
IDS       Intrusion Detection System
ISC       Infrastructure Services Center
IT        Information Technology
MAC       Mission Assurance Category
OMB       Office of Management and Budget
OST       Operations Support Team
PE        Processing Element
SA        System Administrator
SAS       Statement on Auditing Standards
SM        Security Manager
SMC       System Management Center
SRR       Security Readiness Review
SSO       Systems Support Office
STIG      Security Technical Implementation Guide
VMS       Vulnerability Management System




                                      72
Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Director, Program Analysis and Evaluation

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Auditor General, Department of the Air Force

Combatant Command
Inspector General, U.S. Joint Forces Command
Commander, U.S. Strategic Command

Other Defense Organizations
Director, Defense Finance and Accounting Service
Director, Defense Information Systems Agency

Non-Defense Federal Organization
Office of Management and Budget
Government Accountability Office

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations


                                          73
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member (cont’d)
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                        74
Team Members
The Defense Financial Auditing Service, in conjunction with contract auditors
from Price Waterhouse Coopers and the Technical Assessment Division of the
Department of Defense Office of the Inspector General (DoD OIG), prepared this
report. Personnel of the Quantitative Methods Division, DoD OIG, also
contributed to the report.

Paul J. Granetto
Patricia A. Marsh
Addie M. Beima
Michael Perkins
Kenneth H. Stavenjord
Suzette L. Luecke
LTC Shurman Vines
Peter C. Johnson
Ahn Tran
Michael Davitt
Chanda D. Lee
Jason E. Alt
Walter J. Carney
Eric T. Thacker
Cindy L. Gladden
Chi H. Lam
Brian M. Stumpo
Wen-Tswan Chen
